<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 21, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Nelson, Shelby, and Voinovich.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF CHRISTOPHER J. SCOLESE, ACTING 
            ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, and welcome to the 
Subcommittee on Commerce, Justice, and Science. I'd like to 
welcome Mr. Scolese from the NASA Goddard Space Flight Center 
in my State.
    We have heard testimony from several Presidents' 
administrations, we've had Nobel Prize winners, and now we're 
actually going to have astronauts in space. As I understand it, 
it is the very first time that we will receive testimony from 
space.
    One could make jokes about it, and maybe we've heard it 
before when it's been coming from outer space, but today it 
will be the real deal.
    As we prepare for that, know that I've also asked one of 
our colleagues who is an astronaut Senator Bill Nelson, to join 
us for that part of the hearing. The Senate is a wonderful 
institution, we've actually had three astronaut Senators--John 
Glenn, Jake Garn, and Bill Nelson.
    And one today which, really, with the Hubble, Senator 
Shelby and I have been together on the Hubble for 19 years, as 
was Senator Kit Bond.
    I really want to pay tribute to both Senator Glenn--when I 
took over this subcommittee so many years ago he was a learned 
counselor and adviser to help me really understand the breadth 
and depth of the American Space Program.
    I also want to pay tribute to Senator Jake Garn, who was my 
ranking member in those days and on a bipartisan basis we 
worked together to do many sound things to achieve a balanced 
space program. And Senator Garn brought a measure of great 
civility and an enormous knowledge, and I feel that I was able 
to launch my career in trying to help the American Space 
Program because of the excellent guidance and tutelage, those 
two space astronaut Senators gave me.
    So, with that, I also, want to welcome Chris Scolese to the 
hearing. He's no stranger to us, he's served as NASA's Chief 
Engineer since 2007, and was the Deputy Director of the Goddard 
Space Flight Center.
    I want to thank Administrator Scolese for steering the NASA 
ship during this time of transition. It has indeed been in 
competent hands, and I want to thank you for your fidelity, for 
your competence, and for your stewardship. It exactly shows why 
we need a civil service, and why we need a NASA civil service. 
You truly have been part of that senior executive corps, 
providing hands-on leadership, as well as motivation of his 
staff, as we go through very difficult times.
    So, I really want to thank you, and I think, you know, I 
want to just give you a little round of applause. I'm sorry 
more colleagues are not here, they'll be here for the more 
glitzy part of it, but we think you're glitzy, too.
    Later on in the hearing, as I said, we're going to talk to 
7 of our very daring and courageous astronauts from Space 
Shuttle Atlantis.
    But let us get right to the heart of why we're here, which 
is the NASA 2010 budget request. It's for $18.7 billion--$1 
billion above the omnibus level--and also, NASA has received $1 
billion in the American recovery stimulus package. So, between 
the 2010 budget request, the Recovery Act, NASA will receive $2 
billion more than they have in the past. This is a real 
victory.
    Unfortunately, these gains don't continue into the future, 
and this is where we're deeply troubled. We're concerned that 
NASA is flat-lined after 2010.
    But there's promising news within the 2010 budget, as well. 
We're heartened that science is funded at $4.5 billion, with 
greater investments in Earth science as we study our own 
planet, and look to distant stars.
    We also note that in other areas of science, the budget 
totals of $4.5 billion, and NASA is being guided by the decadal 
reports prepared by the National Academy of Science. These are 
roadmaps for us, and we believe science at NASA saves lives, 
saves the planet, and creates jobs for the future. We're very 
heartened that we will continue to look at green science as we 
look at Planet Earth, but at the same time, to do other forms 
of science, related to planetary science, as well as solar 
science. And we're going to continue our mission development in 
telescopes, like the James Webb telescope.
    In aeronautics research, the budget request is for $507 
million, roughly the equivalent of the 2009 omnibus level. This 
is disappointing. The aeronautics budget in 1998 was $1.5 
billion, 10 years ago, aeronautics was one of the keystones of 
the NASA budget. We've got to get back to this, because we 
believe that in order to maintain U.S. leadership in 
aeronautics, we need to make those public investments in 
development of technologies that increase our competitive edge 
in aircraft and airspace for safer, better, faster 
transportation.
    The budget also reflects money for the Space Shuttle, and 
the space station, $3.2 billion for the Space Shuttle, $2.3 
billion for the space station.
    The budget calls for eight more flights to the space 
station, and we'll be discussing this in a very active way with 
the acting administrator. Eight more flights before the end of 
the fiscal year 2010.
    We know the administration is committed to these remaining 
flights, and we know that delays that can occur in the Shuttle 
schedule, and we're concerned that there's no funding in the 
budget to keep a transition going.
    As we retire the Shuttle, and we must do it with honor, we 
also have to acknowledge the wonderful workforce that has kept 
the Shuttle flying all of these years. And that this 
transitioning of the workforce is a major challenge for NASA, 
for the administration, and quite frankly for the Congress to 
work on a bipartisan basis with us.
    The United States can't afford to lose this talent. Our 
talent in science and engineering continues to be needed, so we 
need to really take a fresh, creative way of looking at this 
workforce.
    As our courageous astronauts perform amazing feats, we also 
need to know that with that Space Shuttle, safety has to be our 
number one concern, our number one priority that is a--
absolutely needs to ensure. We need to ensure their safety, no 
matter what.
    Now, this budget is a down payment on a balanced space 
program. Some years ago, a man by the name of Norm Augustine 
chaired a White House Commission for the President--a 
Republican President, I might add--and we've followed that for 
years, that we would have a commitment to human space 
exploration, a reliable and safe space transportation system 
and that we would do science, and we would do aeronautics.
    Well, here we are again, where we're asking Norm Augustine 
to chair a Commission in terms of human flight. We look forward 
to the way that the Augustine review will take place, and 
hopefully it will help us, guide us on this.
    Let me conclude, though, by saying we're deeply troubled by 
the cost overruns at NASA. Since 2006, 10 of the 12 NASA 
projects in development have exceeded baseline cost in 
schedules. This has cost credibility with NASA and the 
Congress. So, whenever they want to do something new that's 
dazzling, that's important to either our economics or to 
science, or to exploration, we wonder what we're getting into. 
And what we think we're getting into either doubles or triples 
or so on. And there is a growing concern among our colleagues 
that because of flawed estimates that there is a reluctance to 
begin what we need to do.
    I believe we need to tackle this, and we're going to look 
for your ideas on how to do that.
    But I want to conclude by saying this is a very special 
year in NASA's space history. It's the 50th anniversary of when 
NASA was created. It's the 40th anniversary, this July--July 
20--of when we landed on the Moon. It's the 25th anniversary of 
when Dr. Sally Ride was the first woman to go into space, and 
of course, the beloved, and cherished Hubble Telescope, the 
people's telescope, is celebrating its 19th year in space, and 
like a lot of us, it's had ups and downs and needed a lot of 
help.
    So, we look forward to hearing from you, we think the 
President has done a good job in making recommendations in this 
budget, but we think there's more work to be done.
    Now I'd like to turn to my ranking member, Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman.
    Mr. Scolese, thank you for joining us today, and thank you 
for the work that you've done over the years at NASA.
    This is a sizable sum with our budget, considering the 
funding constraints that the Federal Government faces. This is 
a $903 million, or 5.1 percent increase over the 2009 funding 
level.
    This would provide--but it doesn't begin to provide enough 
for NASA to do all of the critical missions it has been asked 
to do.
    The proposed budget has welcome increases in the areas of 
science and exploration, and maintains aeronautics funding at 
an acceptable level. However, more than 21 percent of NASA's 
budget, nearly $4 billion, is being set aside as a placeholder, 
while NASA turns its manned space program over to, what will 
hopefully be an independent, and unconstrained blue-ribbon 
panel.
    While there are a few developments at NASA to be excited 
about, there are even more that are troubling.
    For starters, we are just now receiving a budget proposal 
from the administration that claimed it was able to hit the 
ground running, and was ready to lead.
    With the nominee for the Administrator's post that was 
barely announced less than a week ago, the administration, I 
believe, has chosen to let their budget proposal be the face of 
NASA until a successful nominee is confirmed, in order to 
shepherd this Nation's space priorities through Congress.
    In the case of the future for human space flight in some 
lunar science missions, the administration has made Norm 
Augustine that Chairwoman Mikulski referenced, the de facto 
interim Administrator, further delaying any plan for over $4 
billion of NASA's budget until weeks before the start of the 
fiscal year.
    Such timing will not allow for NASA to potentially re-plan 
a major component of their budget, or for Congress to review 
the inclusion of this funding in fiscal year 2010.
    Rather than rush such a monumental decision, any suggested 
changes should inform the development of the 2011 budget, once 
the ramifications of the recommendations can be fully vetted 
and authorized by Congress.
    The proposed budget--while addressing issues of climate 
change, unmanned exploration and aeronautics research--
shortchanges, I believe, our most viable and visible and 
inspiring manned space flight program. Instead of providing 
Constellation with funds to move forward, it is delaying the 
current mission, while seeking to have a do-over on plans that 
have been authorized by both a Republican and Democratic 
Congress.
    I believe it should be remembered that, while the Hubble 
Telescope has brought us amazing images, and deepened our 
understanding of the universe, this marvelous instrument would 
still be on the ground, without our manned space program.
    It is our distinct pleasure today to be able to talk to the 
crew--as Chairwoman Mikulski said--of the Atlantis, as they 
return to Earth from a successful mission. They will be the 
last, I believe, of Americans to travel farther away from the 
Earth than the Space Station for years to come.
    I believe that manned space flight is something that is 
still in the realm of Government, because despite their best 
efforts, some truly private enterprises have not been able to 
deliver on plans of launching vehicles.
    SpaceX claimed that they would be launched by 2004, and had 
a grandiose vision of manned flights launching by early this 
year. Unfortunately, the reality is that out of four attempts, 
they've only delivered a single dummy payload to space, have 
never delivered any payload to the Space Station, much less a 
human.
    However grandiose the claims of proponents for commercial 
orbital transportation services, part D, they cannot substitute 
for the painful truth of failed performance, at present. For 
all of the hype, and the hundreds of millions in taxpayer 
dollars invested in cargo-only delivery, we still await the 
first successful completion of a single mission that delivers a 
real payload, not a simulated dummy.
    I ask--is this the hope we will hitch our dreams of the 
future of manned space flight to? Will unproven cargo 
capabilities close the manned space flight gap faster than the 
work NASA has done on Ares and Orion? Are we to entertain the 
idea of placing people on a rocket that has yet to deliver a 
single real payload of any kind into space? I would have 
trouble, Madam Chairwoman, supporting a budget that is poised 
to eliminate a real manned space program, and instead maintains 
the fantasy of one.
    This course, I believe, will only extend the time we will 
have to rely on the Russians to get our astronauts to a space 
station for which we have invested billions of dollars.
    Without truly supporting and building upon the human and 
heavy-lift launch capabilities that are already under 
development, our astronauts will have no choice but to wave at 
the Russians, perhaps the Chinese, and possibly astronauts from 
India and other countries, as they pass by the Space Station on 
their way to exploring space.
    As our astronauts endlessly circle the Earth in the future, 
astronauts from other nations, perhaps, will be exploring well 
beyond the edges of Earth's atmosphere and will become the 
inspiration of America's children. Is that what we want? I hope 
not.
    We may be the leader in manned space flight today, but the 
eventual ramifications of this budget, as I understand it, has 
the potential to ensure that this lead will end, perhaps 
forever.

                           PREPARED STATEMENT

    I look forward to hearing from you today, but the reality 
is that rocket science is tough, it is not a cheap venture, and 
it is not without risk. As a former NASA Administrator recently 
said, and I'll quote, ``A fictional space program will always 
be faster, better, and cheaper than a real space program, but 
it won't be one.''
    Thank you.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Madam Chairwoman. Mr. Scolese, thank you for joining us 
today to discuss the fiscal year 2010 budget proposal for the National 
Aeronautics and Space Administration (NASA). NASA's proposed budget is 
$18.7 billion. This is a $903 million, or 5.1 percent, increase over 
the fiscal year 2009 funding level.
    This is a sizeable sum considering the funding constraints that the 
Federal Government faces, yet it still does not begin to provide enough 
for NASA to do all of the critical missions it has been asked to do. 
The proposed budget has welcomed increases in the areas of science and 
exploration, and maintains aeronautics funding at an acceptable level. 
However, more than 21 percent of NASA's budget, nearly $4 billion, is 
being set aside as a placeholder while NASA turns its manned space 
program over to what will hopefully be an independent and un-
constrained blue ribbon panel.
    While there are a few developments at NASA to be excited about, 
there are even more that are troubling. For starters, we are just now 
receiving a budget proposal from an administration that claimed it was 
able to hit the ground running and was ready to lead. Without even a 
nominee for Administrator, this administration has chosen to let their 
budget proposal be the face of NASA until a successful nominee is 
confirmed in order to shepherd the Nation's space priorities through 
Congress.
    In the case of the future for human space flight and some lunar 
science missions, the Administration has made Norm Augustine the de 
facto interim administrator, further delaying any plan for over $4 
billion of NASA's budget until weeks before the start of the fiscal 
year. Such timing will not allow for NASA to potentially re-plan a 
major component of their budget, or for Congress to review for 
inclusion this funding in fiscal year 2010. Rather than rush such a 
monumental decision, any suggested changes should inform the 
development of the 2011 budget once the ramifications of the 
recommendations can be fully vetted and authorized by Congress.
    The proposed budget, while addressing issues of climate change, un-
manned exploration, and aeronautics research, shortchanges our most 
visible and inspiring space program, manned space flight. Instead of 
providing Constellation with funds to move forward, it is delaying the 
current mission while seeking to have a do-over on plans that have been 
authorized by both a Republican and Democratic Congress.
    It should be remembered that while the Hubble telescope has brought 
us amazing images and deepened our understanding of the universe, this 
marvelous instrument would still be on the ground without our manned 
space program. It is our distinct pleasure today to be able to talk 
with the crew of Atlantis as they return to Earth from a successful 
mission. They will be the last Americans to travel farther away from 
Earth than the space station for years to come.
    I believe that manned space flight is something that is still in 
the realm of government because, despite their best efforts, some truly 
private enterprises have not been able to deliver on plans of launching 
vehicles. Space-X claimed that they would be launching by 2004 and had 
grandiose visions of manned flights launching by early this year. 
Unfortunately the reality is that out of four attempts, they have only 
delivered a single dummy payload to space, have never delivered any 
payload to the space station, much less a human. However grandiose the 
claims of proponents for Commercial Orbital Transportation Services 
part D (COTS-D) are, they cannot substitute for the painful truth of 
failed performance at present.
    For all the hype and the hundreds of millions in taxpayer dollars 
invested in cargo only delivery, we still await the first successful 
completion of a single mission that delivers a real payload, not a 
simulated dummy.
    I ask, is this the hope we will hitch our dreams of the future of 
manned space flight? Will these unproven cargo capabilities close the 
manned spaceflight gap faster than the work NASA has done on Ares and 
Orion? Are we to entertain the idea of placing people on a rocket that 
has yet to deliver a single, real, payload of any kind to space?
    I would have trouble supporting a budget that is poised to 
eliminate a real manned space program and instead maintains the fantasy 
of one. This course will only extend the time we will have to rely on 
the Russians to get our astronauts to a space station for which we have 
invested billions.
    Without truly supporting, and building upon the human and heavy 
lift launch capabilities that are already under development, our 
astronauts will have no choice but to wave at the Russians, the 
Chinese, and possibly astronauts from India, as they pass by the space 
station on their way to exploring space. As our astronauts endlessly 
circle the Earth, the astronauts of other nations will explore well 
beyond the edges of Earth's atmosphere and will become the inspiration 
of America's children. We may be the leader in manned space flight 
today, but the eventual ramification of this budget has the potential 
to ensure that this lead will end forever.
    The reality is that rocket science is hard. It is not a cheap 
venture, and it is not without risk. As the former NASA Administrator 
recently said, ``a fictional space program will always be faster, 
better, and cheaper than a real space program.''
    I look forward to working with NASA and the Administrator, once one 
is nominated and confirmed, to move the real space program at NASA and 
its exploration goals forward in the next fiscal year.
    Thank you.

    Senator Mikulski. Senator Voinovich, are you prepared to 
stay for the hearing, so we could go to Scolese?
    Senator Voinovich. I am, but I have a short statement.
    Senator Mikulski. Would you like to make it?
    Senator Voinovich. Yes, I would.
    Senator Mikulski. Sure.

                STATEMENT OF SENATOR GEORGE V. VOINOVICH

    Senator Voinovich. Thank you very much for having this 
hearing, and it's my first opportunity to be on this 
subcommittee, and Mr. Scolese, thank you for your participation 
here.
    I want you to know that NASA is very close to me, I'm 
wearing this watch that was given to me by the crew of the STS-
70, the all-Ohio crew that happens to have the OSU Buckeye sign 
on it.
    We're all aware of what NASA's done, and their engineering 
and scientific accomplishments. Given the complexity and 
uniqueness and variety of the missions that are managed under 
the NASA umbrella, it's of utmost importance that the Agency 
have adequate human capital framework to ensure their success, 
and I just want you to know how pleased I am with the fact that 
NASA has used the additional flexibilities that we gave them in 
2004 so that you could go out and recruit the best and 
brightest people to work for NASA.
    In addition to that, I'd like to thank you and former 
Administrator Griffin for the fact that you came up with a 
program at a very difficult time to maintain the 10 centers 
that we had throughout the United States. And I want to applaud 
you that you took back in work that was going out to other 
contractors to try and maintain the in-house capability of 
NASA.
    I am also please, Madam Chairwoman, that when there was a 
concern about whether or not you were going to continue your 
commitment to aeronautics, and I agree with you, Madam 
Chairwoman, that that budget for aeronautics ought to be 
reviewed.
    But I'm also grateful that you identified our, as Glenn, 
for the CEV and for the launch vehicle, that we now have a new 
mission.
    I think the real challenge now is to make sure that we 
allocate these resources in the places that it makes the most 
difference. And I think that Senator Shelby makes a very good 
point about dealing with some of the real-world things, and I 
think the American public is going to demand that, and I'm 
certainly hoping that Mr. Augustine takes that into 
consideration when he comes back to make his recommendations to 
NASA.
    I have to say that I was concerned about what the 
administration would do about the NASA budget. There was many 
of us that felt that because of other priorities, that the NASA 
budget would be shortchanged. That hasn't been the case--as 
Senator Shelby says, there's been an increase of 5.1 percent. 
So, somebody did a pretty good job with OMB, convincing them 
that this program was worthwhile.

                           PREPARED STATEMENT

    And I keep emphasizing--as I had when I was mayor, and 
Governor of Ohio--that too often NASA does not do a good enough 
job in letting the folks of this country know how the work that 
they're doing has so many other things that make a difference 
in people's lives. In other words, not just up in space, but 
all of these things that you're doing, do impact--remarkably--
the quality of life of people here in this country.
    And we've seen this at Cleveland Clinic. They've taken a 
lot of stuff that you guys have developed, and put it to work 
to save people's lives.
    So, I'm anxious to hear your testimony today.
    [The statement follows:]

           Prepared Statement of Senator George V. Voinovich

    Good Morning. Thank you Chairwoman Mikulski and Ranking Member 
Shelby for convening today's hearing. Thank you Mr. Scolese for 
participating. I am looking forward to hearing more about the 
administration's fiscal year 2010 budget request and what NASA has in 
store for the future.
    NASA's engineering and scientific accomplishments have long been a 
symbol of America's innovation and technological excellence.
    Given the complexity, uniqueness, and variety of missions that are 
managed under the NASA umbrella, it is of utmost importance that the 
agency have an adequate human capital framework to ensure mission 
success. That is why I have utilized my role on the Homeland Security 
and Government Affairs Subcommittee on Oversight of Government 
Management, the Federal Workforce and the District of Columbia to work 
with NASA to improve its workforce development.
    I am proud that the agency has made substantial and commendable 
strides in its human capital management since 2004, when my 
legislation, the NASA Flexibility Act, was signed into law. NASA has 
certainly done a much better job in recruiting, developing, and 
retaining the staff it needs to execute the agency's missions.
    As a former mayor of Cleveland and governor of Ohio, I have been 
concerned for many years about NASA Glenn's struggle to obtain an 
identifiable mission. When I spoke with several of NASA Glenn's 
administrators a few years ago, we were all worried about restoring 
NASA's aeronautics funding and setting NASA Glenn on a clear mission 
forward.
    In 2005, when Mike Griffin became NASA's administrator, I met with 
him to discuss the future of NASA Glenn, and he assured me he was not 
only focused on keeping NASA centers around the country functioning, 
but also that he was committed to finding a new mission for Glenn. I 
was pleased with Griffin's leadership. He did a great job managing and 
maintaining the ten NASA research centers at a time when the agency was 
going through a difficult transition.
    I am so glad he was able to work with Lockheed Martin to see NASA 
Glenn secure an identifiable mission that included testing and 
certification of the Crew Exploration Vehicle (CEV) as well as 
overseeing the development of several Crew Launch Vehicle (CLV) upper 
stage systems.
    But the staffs at NASA Glenn and at the Plum Brook facility are 
eager to do more.
    Glenn is renowned for its blend of aeronautics and space flight 
experience. Together, NASA Glenn Research Center and the Air Force 
Research Lab at Wright-Patterson Air Force Base have helped shape Ohio 
as a global leader in aerospace design and production.
    I am generally pleased with where NASA has been headed, but 
concerned that with the impending retirement of the Space Shuttle, and 
its replacement by the next generation of human space flight systems 
that shifting priorities within NASA could lead to the transfer of NASA 
Glenn Research Center's mission responsibilities to other NASA centers.
    It is my hope that the vitality of Glenn be maintained, and that 
the Obama Administration and its future nominee for NASA administrator 
would continue its commitment to the ``10 Healthy Center Concept.''
    Mr. Scolese, thank you again for joining us, I am eager to hear 
your thoughts on the future NASA.

    Senator Mikulski. Mr. Scolese, please proceed.

                  STATEMENT OF CHRISTOPHER J. SCOLESE

    Mr. Scolese. Thank you, Chairwoman Mikulski, Ranking Member 
Shelby, and members of the subcommittee. Thank you for inviting 
me here today to discuss the President's fiscal year 2010 
budget request of $18.686 billion for NASA.
    The President's request is $903.6 million above the fiscal 
year 2009 omnibus appropriation.
    First, let me note that NASA's fiscal year 2009 budget is 
$18.8 billion, or about $1.2 billion above the fiscal year 2009 
request. This reflects an increase of $168 million in the 
regular appropriations, and about $1 billion in the Recovery 
Act.
    NASA is appreciative of the support of this committee, and 
the Congress, for the full funding of the fiscal year 2009 
request, and the additional Recovery Act funds, which will 
enable NASA to meet critical priorities.
    The President's fiscal year 2010 request includes $4.5 
billion for science. In Earth Science, NASA is continuing to 
work aggressively to implement the recommendations of the 
decadal survey. The first two decadal missions--SMAP and 
ICESat-II, continue formulation. The next two DESDynI and 
CLARREO--will be accelerated and NASA will issue its first 
Venture-class announcement of opportunity this year.
    Over the next year, we plan to launch the Glory and 
Aquarius missions, the GOES-O mission for NOAA, and complete 
the development of the NPOESS Preparatory Project.
    We will continue development of the foundational missions, 
including the global precipitation mission, the landsat data 
continuity mission, and initiate work on a thermal infrared 
sensor.
    NASA is currently assessing options to recover from the 
disappointing loss of the Orbiting Carbon Observatory, and we 
will keep you informed of our findings and plans.
    In planetary science, we are continuing the exploration of 
the solar system with the Juno mission to Jupiter, the Mars 
Science Laboratory, and the MAVEN Scout mission to Mars.
    In astrophysics, I'm pleased to report that the final 
Hubble servicing mission EVA was completed on Monday, and 
earlier this week, the Space Shuttle successfully released a 
revitalized Hubble Space Telescope. We look forward to many 
more years of discoveries from Hubble. Development continues on 
the James Webb Space Telescope, which passed its confirmation 
review last year, and has an Agency commitment to launch in 
2014.
    NASA's fleet of heliophysics missions located throughout 
the solar system is providing researchers the first ever 
comprehensive view of solar influences on the Earth and other 
planets.
    The fiscal year 2010 budget request of $507 million renews 
NASA's commitment to a strong program in aeronautics, that will 
continue to contribute to the economic well-being and quality 
of life of Americans through its partnerships with industry, 
academia, and other government agencies.
    Our Airspace Systems Program continues to collaborate with 
the Joint Planning Development Office to enhance the capacity, 
efficiency, and flexibility of the National Airspace System.
    In exploration, the President's fiscal year 2010 budget 
request of $3.963 billion is an increase of $457 million above 
the fiscal year 2009 omnibus appropriations level, and $225.4 
million above last year's plan. This increased budget will 
support continued progress to advance the development of the 
next-generation human spaceflight system to carry American 
crews and supplies to space and return Americans to the Moon. 
Specifically, the Lunar Reconnaissance Orbiter and the Lunar 
Crater Observation Sensing Satellite spacecraft are ready for 
launch next month. Later this year, two major test flights will 
be conducted: the Ares 1-X developmental test flight from KSC, 
and the Orion Pad Abort I test at the White Sands Missile 
Range.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of 
U.S. human space flight plans, conducted by a panel of outside 
experts, chaired by Norm Augustine. The review will examine 
ongoing and planned NASA human spaceflight development 
activities and potential alternatives, and present options for 
advancing a safe, innovative, sustainable, and affordable human 
spaceflight program in the years following Shuttle retirement. 
It will also evaluate options for extending ISS operations 
beyond 2016. The panel will present its results by August 2009. 
During the review, the NASA workforce will continue to work on 
all current exploration projects, including the Ares I and 
Orion.
    The President's fiscal year 2010 budget request includes 
$6.176 billion for Space Operations, which funds the safe 
flight of the Space Shuttle to complete the eight remaining 
scheduled flights to the ISS and then retire the Shuttle. We 
believe these flights can be accomplished by the end of 2010. 
This month, the ISS will host its first six-person crew, and 
next month, the STS-127 mission will deliver the third and 
final component of the Japanese Kibo laboratory, setting the 
stage for full research utilization of the ISS.
    Last December, NASA awarded two commercial resupply 
services contracts to develop vehicles needed to deliver 
supplies and experiments to the ISS. The benefits from NASA's 
human spaceflights programs are ultimately demonstrated in the 
inspiration of the next generation of Americans, which was 
reflected recently in the delighted faces of students who 
participated in the uplink phone call between President Obama 
and the combined Shuttle and Station crews last month.
    Finally, the fiscal year 2010 request supports NASA's 
Education Program, to continue developing a future aerospace, 
technical, and scientific workforce, improving the 
technological competitiveness of our Nation's universities, and 
attracting and retaining students in science, technology, 
engineering, and mathematics disciplines.

                           PREPARED STATEMENT

    This request also funds the NASA cross-agency support 
programs, which provide critical mission support activities, 
necessary to assure the efficient and effective operation and 
administration of the Agency and its Centers.
    Madam Chair, thank you again for your support, and that of 
this committee, I would be pleased to respond to any questions 
you may have.
    [The statement follows:]

              Prepared Statement of Christopher J. Scolese

    Chairwoman Mikulski and members of the subcommittee, thank you for 
the opportunity to appear today to discuss the President's fiscal year 
2010 budget request for NASA. The President's fiscal year 2010 budget 
request for NASA is $18.686 billion. The fiscal year 2010 request 
represents an increase of $903.6 million above the amount provided for 
NASA in the fiscal year 2009 Omnibus Appropriations Act (Public Law 
110-8). The fiscal year 2010 budget does a number of things: it 
supports the administration's commitment to deploy a global climate 
change research and monitoring system; it funds a strong program of 
space exploration involving humans and robots with the goal of 
returning Americans to the moon and exploring other destinations; and 
it supports the safe flight of the Space Shuttle to complete assembly 
of the International Space Station by the Space Shuttle's planned 
retirement.
Highlights of the Fiscal Year 2010 Budget Overview
    With the fiscal year 2010 budget request, NASA advances global 
climate change research and monitoring. The NASA investment in Earth 
science research satellites, airborne sensors, computer models and 
analysis has revolutionized scientific knowledge and predictions of 
climate change and its effects. Using the National Research Council's 
recommended priorities for space-based Earth science research as its 
guide, NASA will develop new space-based research sensors in support of 
the administration's goal to deploy a global climate research and 
monitoring system. NASA will work to deploy these new sensors 
expeditiously while coordinating with other Federal agencies to ensure 
continuity of measurements that have long-term research and 
applications benefits.
    The fiscal year 2010 NASA request funds a robust program of space 
exploration involving humans and robots. NASA's astronauts and robotic 
spacecraft have been exploring our solar system and the universe for 
more than 50 years. The Agency will create a new chapter of this legacy 
as it works to return Americans to the Moon by 2020. NASA also will 
send a broad suite of robotic missions to destinations throughout the 
solar system and develop a bold new set of astronomical observatories 
to probe the mysteries of the universe, increasing investment in 
research, data analysis, and technology development in support of these 
goals.
    With the fiscal year 2010 request, NASA will complete the 
International Space Station (ISS) and advance the development of new 
space transportation systems and the unique scientific research that 
can be conducted onboard the ISS. The fiscal year 2010 budget request 
funds for the safe flight of the Space Shuttle to complete the ISS, 
incorporates an additional flight to deliver the Alpha Magnetic 
Spectrometer (AMS) to the ISS, and then retires the Shuttle. NASA is 
committed to completing these nine remaining scheduled Shuttle flights, 
including the current mission underway to service the Hubble Space 
Telescope, which we believe can be accomplished by the end of 2010. 
Funds freed from the Shuttle's retirement will enable the Agency to 
support development of systems to deliver people and cargo to the ISS 
and the Moon and explore other destinations. As part of this effort, 
NASA will stimulate private-sector development and demonstration of 
vehicles that may support the Agency's human crew and cargo 
requirements for ISS. In addition, the Agency will continue to utilize 
the ISS, the permanently crewed facility orbiting Earth that enables 
the Agency to develop, test, and validate critical space exploration 
technologies and processes, and to conduct microgravity research. NASA 
also will continue to coordinate with international partners to make 
this platform available for other government entities, commercial 
industry, and academic institutions to conduct research.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of planned 
U.S. human space flight activities, with the goal of ensuring that the 
Nation is on a vigorous and sustainable path to achieving its boldest 
aspirations in space. This review will be conducted by a blue-ribbon 
panel of outside experts chaired by Norman R. Augustine. The panel will 
present its results in time to support an administration decision on 
the way forward by August 2009. This Review of U.S. Human Space Flight 
Plans will examine ongoing and planned NASA human space flight 
development activities, as well as potential alternatives, and present 
options for advancing a safe, innovative, affordable, and sustainable 
human space flight program in the years following completion of the 
current Space Shuttle manifest and retirement. The independent review 
panel will seek input from Congress, the White House, the public, 
industry, and international partners. In addition, the review will 
examine the appropriate amount of R&D and complementary robotic 
activities needed to make human space flight activities most productive 
and affordable over the long term, as well as appropriate opportunities 
for international collaboration. It will also evaluate what 
capabilities would be enabled by each of the potential architectures 
considered. And it will evaluate options for extending International 
Space Station operations beyond 2016. We will keep the Congress 
informed, as appropriate, with the progress of the review.
    It is important to note that the President has submitted a fiscal 
year 2010 budget request for NASA Exploration Systems of $3.963 
billion, an increase of $457.6 million above the fiscal year 2009 
Omnibus Appropriations level. During the review, the NASA workforce 
will continue to focus on the safe flight and operation of the Space 
Shuttle and ISS, and continue to work on all current exploration 
projects, including Ares I, Orion, and Commercial Crew and Cargo 
efforts.
    The President's fiscal year 2010 budget request includes $507 
million for Aeronautics Research, renewing NASA's commitment to 
cutting-edge, fundamental research in traditional and emerging 
disciplines to help transform the Nation's air transportation system 
and to support future aircraft. NASA research will increase airspace 
capacity and mobility, enhance aviation safety, and improve aircraft 
performance while reducing noise, emissions, and fuel consumption. The 
Integrated Systems Research Program, a new program beginning in fiscal 
year 2010, will conduct research at an integrated system-level on 
promising concepts and technologies and explore, assess, and 
demonstrate the benefits in a relevant environment.
    Finally, consistent with administration priorities, NASA is 
developing plans to stimulate innovation and increase investments in 
technologies for the future while ensuring that nearer-term Agency 
commitments are met.
NASA Initial Fiscal Year 2009 Operating Plan and Recovery Act Funding
    Before I highlight key accomplishments and plans for activities 
across the Agency, I would like to summarize NASA's initial fiscal year 
2009 Operating Plan, including Recovery Act funding, as recently 
submitted to the subcommittee. The initial fiscal year 2009 Operating 
Plan is $18,784.4 million, or $1,170.2 million above the President's 
fiscal year 2009 request, which reflects an increase of $168.2 million 
in the regular appropriation and $1,002.0 million in the Recovery Act. 
NASA is appreciative of the action by the Committees on Appropriations 
and Congress in providing regular appropriations for the Agency with 
full funding for Science, Aeronautics, Exploration, Space Shuttle, ISS, 
and Education. This total fiscal year 2009 appropriations level, with 
minor adjustments within the total, will enable NASA to meet critical 
priorities, in accordance with the direction from the Congress and the 
President. NASA also appreciates the efforts by the subcommittees to 
include funding for NASA in the Recovery Act. This funding will help 
NASA achieve programmatic goals in Science, Exploration and 
Aeronautics, and repair damage done to the NASA Johnson Space Center 
during Hurricane Ike, and support national recovery goals.
    NASA has allocated the $1,002.0 million in Recovery Act funds as 
follows:
  --Science, $400.0 Million
    --Earth Science, $325.0 Million
    --Astrophysics, $75.0 Million
  --Aeronautics, $150.0 Million
  --Exploration, $400.0 Million
    --Constellation Systems, $250.0 Million
    --Commercial Crew & Cargo, $150.0 Million
  --Cross Agency Support, $50.0 Million
  --Inspector General, $2.0 Million
    I would be happy to address the objectives to which NASA is 
applying the Recovery Act funds in detail.
Science
    NASA's Science Mission Directorate continues to expand humanity's 
understanding of our Earth, our Sun, the solar system and the universe 
with 57 science missions in operation and 31 more in development. The 
Science budget funds these missions as well as the research of over 
3,000 scientists and their students across the Nation. The President's 
fiscal year 2010 request for NASA includes $4,477.2 million for 
Science.
    The Science budget request includes $1,405.0 million for Earth 
Science in fiscal year 2010, and steadily increases Earth science 
funding in the outyears. NASA's 15 Earth Science missions in operation 
provide a large share of the global observations used for climate 
change research in the United States and elsewhere. This year, NASA's 
Earth Science satellites enabled research to understand how changes 
both in the tropics and in Arctic sea ice are changing ocean biology 
globally. NASA also recently conducted the first Ice Bridge aircraft 
campaign to demonstrate a new airborne laser capability to bridge the 
gap in time between ICESats 1 and 2. In fiscal year 2010, NASA plans to 
launch the Glory mission to map atmospheric aerosols and continue the 
long record of solar influences on climate, and the Aquarius mission to 
provide the first global measurements of sea surface salinity. NASA 
will complete development of the NPOESS Preparatory Project and 
continue development of the Global Precipitation Mission and the 
Landsat Data Continuity Mission (LDCM). The request fully funds 
development of a Thermal Infra-red Sensor (TIRS) at a total cost of 
approximately $150-175 million. A decision whether to fly TIRS on LDCM 
or another spacecraft will be made this summer; meanwhile, funding for 
TIRS is carried within the LDCM budget. The launch vehicle failure of 
the Orbiting Carbon Observatory (OCO) was a significant loss to the 
climate science communities, and NASA is assessing options to recover 
from that loss; we will inform the Congress of the results of these 
studies when they become available. NASA is continuing to work 
aggressively to implement the recommendations of the National Research 
Council Decadal Survey for Earth Science. The first two Decadal Survey 
missions, SMAP and ICESat-II, will continue formulation in fiscal year 
2010, and the next two, DESDynI and CLARREO, will be accelerated and 
transition to formulation. NASA also expects to issue its first 
Venture-class Announcement of Opportunity later this year, implementing 
another important decadal survey recommendation.
    The fiscal year 2010 Science budget request includes $1,346.2 
million for Planetary Science. NASA's Planetary Science missions 
continue to return images and data from the far reaches of the Solar 
System. This year, the Mars Phoenix Lander completed its mission, 
conducting the first chemical test providing evidence of water ice on 
another planet. MESSENGER returned stunning imagery of portions of the 
planet Mercury never before seen. The Cassini spacecraft continues to 
provide un-paralleled science of the Saturnian system; the spacecraft 
flew within 25km of Enceladus viewing the ejecting plumes and surface, 
and data from 19 fly-bys of Titan enabled creation of a radar map 
showing 3-D topography revealing 1,200-meter (4,000-foot) mountain 
tops, polar lakes, vast dunes, and thick flows from possible ice 
volcanoes. Development is continuing on the Juno mission to Jupiter for 
launch in 2011. NASA and ESA jointly announced they will work together 
on a Europa Jupiter System mission as the next outer planets flagship 
mission. The rovers Spirit and Opportunity continue to study the 
Martian surface and have exceeded their 5-year of successful 
operations. NASA is continuing development of the Mars Science 
Laboratory (MSL) for launch in 2011 and selected MAVEN, a Mars aeronomy 
mission, as the next Mars Scout mission for launch in 2013. NASA has 
integrated its lunar science research program with the Lunar Precursor 
Robotic Program into a single Lunar Quest Program under the Science 
Mission Directorate, which includes the LADEE mission, the U.S. nodes 
of the ILN, and a new virtual university research collaboration called 
the NASA Lunar Science Institute. The Moon Mineralogy Mapper (M3) was 
launched aboard Chandrayaan-1 and has begun making scientific 
observations of the Moon's composition. Development is continuing on 
the GRAIL mission to map the Moon's gravity field for launch in 2011. 
NASA has issued an Announcements of Opportunity for the next New 
Frontiers mission, and will do so for the next Discovery mission later 
this year.
    The fiscal year 2010 Science budget request includes $1,120.9 
million for Astrophysics. 2009 is the International Year of Astronomy, 
and NASA's Astrophysics program will deploy exciting new capabilities 
for studying the cosmic frontier. The Kepler mission, launched in 
March, is NASA's first mission dedicated to the search for Earth-like 
planets in our galaxy. ESA will launch the Herschel and Planck missions 
in April, carrying several NASA instruments, to study the far-infrared 
sky and the cosmic microwave background. The final Hubble Space 
Telescope serving mission aboard STS-125, currently in progress, is 
upgrading the observatory to its peak scientific performance. Late this 
calendar year, NASA plans to launch the Wide-field Infrared Survey 
Explorer (WISE) as part of its highly successful Explorer Program, 
following on the recent successes of the Fermi Gamma-ray Space 
Telescope (launched as GLAST in July 2008), which has provided the 
best-ever view of the gamma-ray sky revealing energetic sources in our 
solar system, our galaxy, and galaxies billions of light-years away. 
Development is continuing on the James Webb Space Telescope, which 
passed its Confirmation Review in 2008 and has an Agency commitment to 
launch in 2014. Development continues on the NuSTAR mission to study 
black holes for launch in 2011, along with a Soft X-ray Spectrometer to 
fly on Japan's Astro-H mission in 2013. Development continues on the 
airborne Stratospheric Observatory for Infrared Astronomy or SOFIA, 
which will conduct open door flight tests in 2009 and early science 
flights in 2010, with planned full operational capability in 2014. 
Conceptual design is continuing for ambitious future mission concepts 
to investigate the origins of planets, stars, and galaxies; to search 
for Earth-like planets around nearby stars; and to examine the nature 
of dark energy, dark matter, gravity waves, and black holes. These and 
other mission concepts are currently under consideration by the NRC's 
decadal survey for Astrophysics, or Astro 2010, which will be completed 
during 2010, and will provide recommendations to NASA on the science 
community's highest priority science questions and strategic missions 
for the next decade.
    The fiscal year 2010 Science budget request includes $605.0 million 
for Heiophysics. The fleet of NASA Heliophysics missions strategically 
placed throughout the solar system is providing researchers the first 
ever solar system-wide view of solar influences on the Earth and other 
planets, and the dynamic structures of space itself. This virtual 
``Great Observatory'' is in place and functioning for the next solar 
magnetic activity cycle, and has already detected the first signs of a 
new solar maximum anticipated for 2011-2012. Late this year or early 
next, the launch of Solar Dynamics Observatory will add to this fleet 
the capability to observe the solar atmosphere to a depth one-third of 
the Sun's radius to study the flow of plasmas that generate magnetic 
fields and the sudden changes that produce coronal mass ejections that 
we experience as space weather. Also this year, NASA plans to select 
two Small Explorer (SMEX) missions in response to an Announcement of 
Opportunity issued in 2008, which could be either Heliophysics or 
Astrophysics missions depending on the proposals selected. Development 
of the Radiation Belt Storm Probes mission to study the interactions of 
space weather events with Earth's magnetic field is continuing for 
launch in 2012. The Magnetosphere Multi-Scale mission to observe the 
processes of magnetic reconnection, energetic particle acceleration, 
and turbulence in Earth's magnetosphere will undergo a Confirmation 
Review this year for a planned launch in 2014. Finally, NASA is 
continuing early formulation work on the Solar Probe-Plus mission that 
will travel into, and sample, the near-Sun environment to probe the 
origins of the solar wind.
Aeronautics Research
    NASA's fiscal year 2010 budget provides $507 million for 
Aeronautics Research. Over the past year, the Aeronautics Research 
Mission Directorate has continued to pursue long-term, innovative, and 
cutting-edge research that develops revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and more efficient national air transportation system. NASA 
Aeronautics Research also plays a vital role in supporting NASA's space 
exploration activities.
    A primary goal across Aeronautics Research programs is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements (SAAs) for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. To date, 68 SAAs have 
been established with industry partners across all programs and 375 
NRAs have been awarded to academia, industry and non-profit 
organizations. NASA Aeronautics has continued to collaborate with the 
Joint Planning Development Office (JPDO), Federal Aviation 
Administration (FAA), U.S. Air Force, Army, and other government 
organizations.
    New for fiscal year 2010, $62.4 million has been provided for the 
Integrated Systems Research Program (ISRP) to conduct research at an 
integrated system-level on promising concepts and technologies and 
explore, assess, or demonstrate the benefits in a relevant environment. 
The research in this program will be coordinated with on-going, long-
term, foundational research within the three other research programs, 
and will be closely coordinated with other Federal Government agency 
efforts. The project within ISRP will be the Environmentally 
Responsible Aviation (ERA) Project, a ``green aircraft initiative,'' 
that will explore and assess new vehicle concepts and enabling 
technologies through system-level experimentation to simultaneously 
reduce fuel burn, noise, and emissions. The ERA project will transfer 
knowledge outward to the aeronautics community so that aircraft and 
propulsion system manufacturers can confidently transition these 
technologies into new products, as well as transfer knowledge inward to 
the Fundamental Aeronautics Program when the need for further 
development at a foundational level is identified.
    NASA's Airspace Systems Program (ASP) has partnered with the JPDO 
to help develop concepts, capabilities and technologies that will lead 
to significant enhancements in the capacity, efficiency and flexibility 
of the National Airspace System. For fiscal year 2010, ASP has been 
reorganized from the NextGen Airspace and NextGen Airportal projects 
into the NextGen Concepts and Technology Development project and the 
NextGen Systems Analysis, Integration and Evaluation project. The 
distinctions between airport operations, terminal-area operations and 
en-route operations were sometimes confusing, leading to time expended 
determining the line of demarcation between the responsibilities of the 
two projects. A more significant distinction is the development of air 
traffic management concepts and the technologies that enable air 
traffic management improvements and the evaluation of these concepts 
and technologies at a system level. The previously planned work on 
airspace concepts, technologies and systems will continue. This new 
project structure is better aligned to the nature of the work being 
performed. A notable accomplishment for ASP is the successful 
completion, by NASA researchers in collaboration with academia and the 
FAA, of a series of human-in-the-loop experiments that explored 
advanced concepts and technology for separation assurance, which 
ensures that aircraft maintain a safe distance from other aircraft, 
terrain, obstacles, and certain airspace not designated for routine air 
travel. The technology being developed by NASA and its partners is 
critical to relieving air-traffic controller workload, a primary 
constraint on airspace capacity that is expected to increase in coming 
years. In the future, this Program will continue to develop new 
technologies to solve important problems such as surface traffic 
planning and control, and initial algorithms for airport arrival and 
departure balancing as well as developing traffic flow management 
concepts for increased efficiencies at the regional and national levels 
for different planning intervals.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
all aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. For fiscal year 2010, all ARMD 
research into planetary entry, descent and landing (EDL) has been 
consolidated into the Hypersonics project in FAP. EDL is an integral 
part of many space missions and is not easily divided into distinct 
hypersonic and supersonic phases. This change will provide more focus 
to technical developments and will also yield technical management 
efficiencies. The FAP program has supported the testing of various new 
concepts that will help enable much improved capabilities for future 
vehicles. For example, wind-tunnel testing was conducted for several 
promising powered lift concepts. Powered lift concepts increase lifting 
force on an aircraft at slow speeds (e.g., at take-off and landing) 
without increasing drag under cruise conditions. Successful use of the 
concepts will enable short take-off and landings on runways less than 
3,000 feet, which will increase next-generation air transportation 
system capacity through the use of shorter fields and improved low-
speed maneuverability in airport terminal areas. Testing was also 
completed for a Smart Material Actuated Rotor Technology (SMART) 
helicopter rotor, which offers the potential for significant noise and 
vibration reduction in rotorcraft. Future work includes technologies 
and advanced tools to evaluate the trades between noise, emissions, and 
performance of future aircraft entering service in the 2012-2015 
timeframe. Additionally, with the transfer of technologies to be 
matured to system-level within ISRP, the Subsonic Fixed Wing (SFW) 
project is streamlining its research content. This is enabling new 
efficiencies across the foundational disciplines remaining in the 
project. The integrated system-level research in this program will be 
coordinated with on-going, long-term, foundational research within the 
three other research programs, and will focus specifically on maturing 
and integrating technologies in major vehicle systems and subsystems 
for accelerated transition to practical application.
    NASA's Aviation Safety Program (AvSP) continues to develop tools 
and technologies to improve on today's incredibly safe air 
transportation system, while ensuring that future technologies can be 
safely incorporated to the system. Examples of advances that support 
this development include NASA's ongoing and new research into aircraft 
icing. For example, with current knowledge we cannot extrapolate how 
ice forms on a straight wing such as found on a turbo-prop to how it 
will form on a swept wing, or a radically new aircraft configuration. 
The Aviation Safety Program is tackling this with a combination of 
computational models and experiments in NASA's Icing Research Tunnel. 
We are establishing that, in high and cold flight conditions, ice can 
form deeper in jet engines than previously understood. NASA is working 
collaboratively with the FAA, industry and international partners, such 
as the National Research Council of Canada, to conduct tunnel tests of 
the underlying physics, to fly our instrumented S-3 Viking into such 
engine icing conditions, and design upgrades to our Propulsion System 
Lab in which jet engines may be tested in detail. Additional future 
work in Aviation Safety includes addressing gaps in validation and 
verification of critical flight software, developing new data-analysis 
capabilities to mine aviation operational data for safety issues, 
examining the safety of new vehicle systems and structures, and 
tackling the biggest human factors issues in the NextGen flightdeck.
    NASA's Aeronautics Test Program (ATP) is focused on ensuring a 
healthy suite of facilities and platforms to meet the Nation's testing 
needs including the development of new test instrumentation and test 
technologies. As part of its continuous efforts to improve facility 
operational efficiencies, ATP initiated the National Force Measurement 
Technology Capability, to address the severe erosion of NASA's 
capability to utilize strain gage balances in wind tunnel testing. The 
National Partnership for Aeronautics Testing, a strategic partnership 
between NASA and the Department of Defense (DOD), recently commissioned 
a study of government-owned, mid-to-large supersonic facilities 
necessary to fulfill future air vehicle test requirements. The Program 
will continue to develop a long-term strategic approach that aligns the 
NASA and DOD facilities to meet future requirements with the right mix 
of facilities and appropriate investments in facility capabilities.
Exploration Systems
    Human space flight is important to America's political, economic, 
technological and scientific leadership. In the span of a few short 
years, NASA has already taken long strides in the formulation of 
strategies and programs to develop a robust program of space 
exploration. These critical steps will allow our Nation to build the 
next-generation space flight vehicles that will carry humans and 
deliver cargo to the ISS and the Moon, and on to other destinations in 
our solar system. The President's fiscal year 2010 budget request for 
Exploration Systems is $3,963.1 million, an increase of $457.6 million 
above the fiscal year 2009 appropriation and $225.4 million above the 
planned fiscal year 2010 level in last year's request. Based on the 
Recovery Act funds and the President's increased budget request for 
fiscal year 2010, the Exploration Systems budget plan includes about 
$630 million more in fiscal year 2009 and fiscal year 2010 than the 
previous plan. At this critical juncture, full funding at the 
President's requested level is essential for expediting development of 
new U.S. human space flight systems to support the International Space 
Station and explore the Moon and other destinations beyond low Earth 
orbit.
    The Constellation Program will apply additional Recovery Act funds 
to critical activities related to the successful completion of the 
Orion, Ares I and Ground Operations projects. The Commercial Crew and 
Cargo Program plans to use Recovery Act funds to stimulate efforts 
within the private sector in order to develop and demonstrate 
technologies that enable commercial human space flight capabilities--
efforts that are intended to foster entrepreneurial activity leading to 
job growth in engineering, analysis, design, and research, and to 
economic growth as capabilities for new markets are created.
    Following the Review of U.S. Human Space Flight activities, the 
administration will provide an updated request for Exploration 
activities, as necessary. In the meantime, NASA is proceeding as 
planned with current Exploration activities, including Ares I, Orion, 
Commercial Crew and Cargo efforts, and lunar systems.
    During the past year, NASA Exploration Systems continued to make 
significant progress in developing the next-generation U.S. human space 
flight vehicles and their associated ground and mission support 
systems. In the next several weeks, the first lunar robotic mission, 
the Lunar Reconnaissance Orbiter and the Lunar Crater Observation 
Sensing Satellite spacecraft, will be launched from the Cape Canaveral 
Air Force Station aboard an Atlas V, which will help NASA scout for 
potential lunar landing and outpost sites. Later this year, two major 
test flights for the Constellation Program will be conducted: Ares I-X 
is the first developmental test flight to support the design of the 
Ares I Crew Launch Vehicle; and the Pad Abort 1 (PA-1) is the first 
test of the Launch Abort System to be used on the Orion Crew 
Exploration Vehicle. NASA will continue to work with other nations and 
the commercial sector to coordinate planning, leverage investment, and 
identify opportunities for specific collaboration on Exploration 
activities.
    The Constellation Program continues to complete the formulation 
phase of its projects--in particular Ares I, Orion, and major ground 
facilities. Major development work is underway, contracts are in place; 
and we have a dedicated group of civil servants and contractors who are 
all working hard to accomplish the Constellation Program's objectives. 
So far, NASA engineers have conducted about 6,500 hours of wind tunnel 
testing on subscale models of the Ares I to simulate how the current 
vehicle design performs in flight. These wind tunnel tests, as well as 
the Ares I-X test flight, will lay the groundwork for maturing the Ares 
I final design prior to its Critical Design Review (CDR). When launched 
later this year from NASA's Kennedy Space Center in Florida, the Ares 
I-X will climb about 25 miles in a 2-minute powered test of the First 
Stage performance and the First Stage separation and parachute recovery 
system. Work on the Orion Project also continues to advance. Recently, 
NASA conducted testing of the water recovery process for the Orion 
capsule, and NASA also selected the material for Orion's heat shield. 
Later this year, Orion's PA-1 test will take place at White Sands 
Missile Range, New Mexico. PA-1 will demonstrate the Launch Abort 
System's ability to pull crew to safety should there be an emergency 
while the Orion and Ares I stack is still on the launch pad.
    In September 2008, Ares I completed a key milestone with its 
Preliminary Design Review (PDR). PDR is the final step of the initial 
design process, and thereby a crucial milestone during which the 
overall project verifies that the preliminary design can meet all 
requirements within acceptable risk limits and within cost and schedule 
constraints, and identifies technical and management challenges and 
addresses approaches for eliminating or mitigating them. This fall, the 
Orion is expected to have progressed to the point of completing PDR, 
and obtaining Agency approval to proceed to Critical Design Review 
(CDR). Current plans call for Ares I to progress to the point of 
obtaining Agency approval by early 2010 to proceed to CDR.
    As part of the Commercial Crew and Cargo Program and its associated 
Commercial Orbital Transportation Services (COTS) cargo projects, NASA 
is completing its promised $500 million investment to the two funded 
COTS partners, Space Exploration Technologies Corporation (SpaceX) of 
El Segundo, California, and Orbital Sciences Corporation (Orbital) of 
Dulles, Virginia. Recently, SpaceX successfully operated the full 
complement of the first stage engines of the Falcon 9, the SpaceX 
launch vehicle. Orbital continues to progress in achieving engineering 
milestones, and completed its PDR earlier this month. In addition, NASA 
has two non-funded COTS partners.
    The transition of NASA facilities, infrastructure, property, and 
personnel from the Space Shuttle Program to the Constellation Program 
continues to be a major activity. This joint effort between the Space 
Operations and Exploration Systems Mission Directorates includes the 
utilization and disposition of resources, including real and personal 
property; personnel; and processes in order to leverage existing 
Shuttle and Space Station assets for NASA's future Exploration 
activities.
    NASA's Advanced Capabilities programs include the Human Research 
Program (HRP) and the Exploration Technology Development Program 
(ETDP). These programs continue to reduce risks for human explorers of 
the Moon and beyond by conducting research and developing new 
technologies to aid future explorers. HRP focuses on the highest risks 
to crew health and performance during exploration missions while also 
developing and validating a suite of human health countermeasures to 
facilitate long-duration space travel. For example, NASA is conducting 
research to better understand the effect of space radiation on humans 
and to develop effective mitigation strategies. This year, HRP 
delivered a space radiation risk assessment tool, provided cockpit 
display design requirements for the Orion spacecraft, and provided 
design requirements for the new Constellation Space Suit System. HRP is 
also conducting research onboard the ISS with regard to: the cardiac 
structure and function of astronauts; radiation shielding technologies; 
and, the effect that certain pharmaceuticals may have on the prevention 
of bone loss during long-duration missions. ETDP will conduct a range 
of activities, including testing cryogenic hydrogen and methane 
propulsion systems for future missions; developing a small pressurized 
rover for transporting astronauts on the lunar surface; and 
demonstrating the capability to produce oxygen from lunar soil. ETDP 
also is conducting experiments on the Space Station to investigate the 
behavior of fluids and combustion in microgravity, and operating 
instruments to monitor atmospheric contaminants on the Space Station.
Space Operations
    The fiscal year 2010 budget request includes $6,175.6 million for 
Space Operations.
    It is an exciting time for NASA's Space Shuttle Program. At this 
moment, the astronauts of Shuttle Atlantis are in orbit on STS-125, the 
final mission to service the Hubble Space Telescope. We anticipate that 
the work they are doing, which includes upgrading the Hubble's 
instruments, should extend the observatory's operational life several 
years. The President's fiscal year 2010 budget funds the safe flight of 
the Space Shuttle to conduct its remaining missions, including the AMS 
flight and completing assembly of the ISS. NASA is committed to 
completing the eight remaining scheduled Shuttle flights, which we 
believe can be accomplished by the end of 2010. These Shuttle flights 
will leave the ISS in a configuration to support a broad portfolio of 
research and to receive and be maintained by commercial cargo services. 
The fiscal year 2010 budget request includes $3,157.1 million for the 
Space Shuttle Program.
    NASA and its Russian, European, Canadian, and Japanese 
International Space Station partners are working together to realize 
one of the most inspiring dreams of the last 50 years: the 
establishment of a station in Earth orbit for the conduct of various 
types of research. We are now approaching two significant milestones. 
In May, the ISS will host its first six-person crew. The recent 
delivery of the Station's final set of solar arrays and other equipment 
by the crew of STS-119 represents the final step toward this goal. In 
June, the STS-127 mission will deliver the third and final component of 
the Japanese Kibo laboratory--the Kibo Exposed Facility. The addition 
of the Exposed facility enables the Kibo laboratory, with the European 
Columbus module and the U.S. Destiny module, to complete the three 
major international science labs on ISS, setting the stage for 
utilization of ISS as a highly capable microgravity research facility. 
The President's fiscal year 2010 budget request includes $2,267.0 
million for the ISS.
    The ISS will represent both an unparalleled international 
cooperative effort and a U.S. National Laboratory in orbit. Scientists 
will be able to conduct biomedical and engineering research from a 
unique vantage point. Some of the work will increase our knowledge of 
the effects of long-duration human space flight, which is critical for 
the design and operation of future human space vehicles, including 
those being developed under the Constellation Program to return U.S. 
astronauts to the Moon and explore other destinations. Other research 
will not be focused on space exploration at all, but may have 
significant applications right here on Earth. Medical research, for 
example, may be applicable to the development of vaccines; NASA's 
research into salmonella aboard the Space Shuttle and ISS has already 
increased our knowledge in this area. In the key areas of energy and 
the environment, the ISS serves as a daily demonstration of ``green'' 
technologies and environmental management techniques. The ISS receives 
120kW of power from its solar arrays to operate the Station and run 
experiments. The ISS environmental system is designed to minimize the 
amount of mass that has to be launched from Earth to support the 
Station, so recycling is a must. STS-119 supplied ISS with a 
replacement Distillation Assembly for Station's water recycling system, 
which is key for supporting a full six-person crew for extended periods 
of time. Given the central role science and technology play in our 
society, it is important that the United States maintain a leadership 
role in these fields. The availability of a research laboratory in the 
microgravity environment of space will support this aim.
    Another benefit from Space Shuttle missions and ISS research is 
reflected in the programs' ability to inspire the next generation of 
Americans. This was reflected recently in the delighted faces of 
students who participated in the uplinked phone call between President 
Obama and the crews of the ISS and STS-119 on March 24. The ISS will 
support the President's goal of making math and science education a 
national priority by demonstrating what can be accomplished through 
science and engineering, and by inspiring both teachers and students.
    NASA is relying on U.S. industry to develop vehicles to deliver 
supplies and experiments to the ISS. In December 2008, the Agency 
awarded two Commercial Resupply Services (CRS) contracts for the 
provision of this critical capability. Cargo resupply is important for 
the continued viability of ISS. In addition, the vendors involved will 
gain valuable experience in the development and operation of vehicles 
that can (1) fly to the ISS orbit; (2) operate in close proximity to 
the ISS and other docked vehicles; (3) dock to ISS; and, (4) remain 
docked for extended periods of time.
    The fiscal year 2010 budget request includes $751.5 million for 
Space and Flight Support, which supports Space Communications and 
Navigation, Launch Services, Rocket Propulsion Testing, Crew Health and 
Safety, and the new Human Space Flight Operations programs.
Education
    The fiscal year 2010 budget request for Education totals $126.1 
million and furthers NASA's commitment to Science, Technology, 
Engineering, and Mathematics (STEM) education. NASA will continue its 
successes in developing a future aerospace workforce, improving the 
technological competitiveness of our Nation's universities, attracting 
and retaining students in STEM disciplines, and engaging the public in 
NASA's missions. NASA will accomplish these goals by offering 
competitive research grants to universities, providing targeted 
educational support to Minority Serving Institutions, and strengthening 
curricula at 2-year community colleges. NASA's plans to streamline and 
centralize internship and fellowship application processes will realize 
cost savings and facilitate student access to information while 
attracting a wider, more diverse participant base. The Agency is also 
seeking new opportunities for student involvement in current space and 
aeronautics research missions and flight projects, including those 
using high altitude balloons, sounding rocket payloads, airborne 
sensors, and space satellites. NASA will further these efforts through 
a new project, Innovation in STEM Education, which will allow the 
Agency to investigate and offer opportunities for student and faculty 
to participate in NASA-related research. In coming months, the Agency 
will complete award announcements for competitive grant programs in K-
12, global climate change, and informal education, and revise and issue 
new solicitations using fiscal year 2009 funds.
    NASA will further pursue a goal to attract and retain students in 
STEM disciplines in the upcoming fiscal year. Last year, the 
Interdisciplinary National Science Program Incorporating Research & 
Education (INSPIRE) program engaged over 200 high schools in STEM 
areas, and NASA Explorer Schools conducted instructional and enrichment 
activities that reached over 105,000 students. The March 2009 STS-119 
mission also provided a unique educational opportunity as two Mission 
Specialists who are science teachers, Joe Acaba and Richard Arnold, 
were part of the crew. NASA Education continues to provide internships, 
fellowships, and research opportunities to help students and educators 
gain hands-on experiences in a range of STEM-related areas. These 
opportunities provide students with the motivation, inspiration, and 
experience needed to serve the Nation's current and future workforce 
needs. In fiscal year 2008, the Agency provided more than 3,000 summer 
internships, reached 5,331 students through significant research 
experience or grants, and provided 139 grants to underrepresented and 
underserved institutions.
    NASA will also engage elementary and secondary school and informal 
education audiences by using Earth and deep space observations, the 
flight experience of Educator Astronaut Dorothy Metcalf-Lindenburger 
aboard STS-131, as well as future missions to the Moon and other 
destinations. New technologies such as social networks, Internet 
collaborations, a new virtual magnet school, and remote control of 
science instruments will expand and enhance these efforts. In fiscal 
year 2010, NASA also plans to provide an online professional 
development system for students training to become educators, in-
service teachers, and informal educators. Additionally, NASA will 
promote continuous public awareness of its mission and improvement to 
STEM literacy by partnering with informal education providers, which 
allows Agency partners to share the excitement of NASA missions with 
their visitors in meaningful ways.
Cross-Agency Support
    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency, but cannot be directly 
aligned to a specific program or project requirement. These important 
functions align and sustain institutional and program capabilities to 
support NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes Center Management 
and Operations, Institutional Investments, and Agency Management and 
Operations. The fiscal year 2010 budget request includes $3,400.6 
million for Cross Agency Support.
    Center Management and Operations funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects. The fiscal year 2010 budget request includes $2.084 million 
for Center Management and Operations.
    Institutional Investments funds design and execution of non-
programmatic revitalization construction of facilities projects, 
demolition projects for closed facilities, and environmental compliance 
and restoration activities. The Construction of Facilities Program 
makes capital repairs and improvements to NASA's critical 
infrastructure to improve safety and security and improve NASA's 
operating efficiency by reducing utility usage. NASA continues to right 
size the infrastructure by demolishing facilities that are no longer 
needed. Emphasis has been placed on energy and water conservation. 
Currently, NASA has five buildings that are certified under the 
Leadership in Energy and Environmental Design (LEED) criteria, three 
additional buildings that are built and awaiting certification as LEED 
Silver facilities, and 13 buildings in various stages of design and 
construction as High Performance Buildings and are expected to be LEED-
certified when completed. The fiscal year 2010 budget request includes 
$355.4 million for Institutional Investments.
    NASA's fiscal year 2010 request includes $961.2 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, 
Innovative Partnerships Program, and Strategic Capabilities Assets 
Program.
  --The fiscal year 2010 budget request provides $412.7 million for 
        Agency Management, which supports executive-based, Agency-level 
        functional and administrative management requirements. Agency 
        Management provides for the operational costs of Headquarters 
        as an installation; institutional and management requirements 
        for multiple Agency functions; assessment and evaluation of 
        NASA program and mission performance; strategic planning; and 
        independent technical assessments of Agency programs.
  --The fiscal year 2010 budget request provides $183.9 million for 
        Safety and Mission Success activities required to continue 
        strengthening the workforce, training, and strengthening the 
        fundamental and robust cross-checks applied on the execution of 
        NASA's mission, and to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The engineering, safety and mission assurance, health and 
        medical independent oversight, and technical authority 
        components are essential to NASA's success and were established 
        or modified in direct response to many of the key Challenger 
        and Columbia accident board recommendations for reducing the 
        likelihood for future accidents. Included under Safety and 
        Mission Success is the Software Independent Verification and 
        Validation program.
  --The fiscal year 2010 budget request for Agency Information 
        Technology Services is $150.4 million, which encompasses cross-
        cutting services and initiatives in IT management, 
        applications, and infrastructure necessary to enable the NASA 
        Mission and improve security, integration and efficiency of 
        Agency operations. NASA plans significant emphasis on continued 
        implementation of five major Agency-wide procurements to 
        achieve the following: (1) consolidation of IT networks leading 
        to improved network management, (2) consolidation of desktop/
        laptop computer services and mobile devices to improve end-user 
        services, (3) data center consolidation to provide more cost-
        effective services, (4) Agency public web site management to 
        improve access to NASA data and information by the public, and 
        (5) Agency business systems development and maintenance to 
        provide more efficient and effective business systems. NASA 
        will also continue to improve security incident detection, 
        response, and management through the Security Operations 
        Center.
  --The request for the Innovative Partnerships Program (IPP) is $184.8 
        million. IPP works with all four Mission Directorates to 
        provide innovations meeting NASA's technology needs, and 
        transfers NASA technology for broad Spinoff applications that 
        improve quality of life and contribute to economic growth. 
        Included in the IPP portfolio are: NASA's SBIR/STTR Programs 
        seeking out innovative high-technology small businesses; a new 
        Innovative Technology Project seeking high-impact revolutionary 
        research and technology projects; a Seed Fund to address 
        technology needs through cost-shared, joint-development 
        partnerships; use of commercial flight services by the FAST 
        program to demonstrate new technologies; Innovation Ambassadors 
        to exchange ideas; and the Centennial Challenges prize program 
        for the citizen inventor. IPP seeks partnerships through 
        offices at all 10 NASA Centers.
  --Finally, NASA is requesting $29.4 million in fiscal year 2010 for 
        the Strategic Capabilities Assets Program (SCAP). This program 
        funds the costs required to sustain key Agency test 
        capabilities and assets, such as an array of flight simulators, 
        thermal vacuum chambers, and arc jets, to ensure mission 
        success. SCAP ensures that assets and capabilities deemed vital 
        to NASA's current and future success are sustained in order to 
        serve Agency and national needs. All assets and capabilities 
        identified for sustainment either have validated mission 
        requirements or have been identified as potentially required 
        for future missions.

Conclusion
    The President's fiscal year 2010 budget request for NASA supports 
the administration's commitment to deploy a global climate change 
research and monitoring system, funds a robust program of space 
exploration involving humans and robots with a goal to return Americans 
to the Moon by 2020 and explore other destinations, and funds the safe 
flight of the Shuttle to complete assembly of the ISS through its 
retirement, planned for the end of 2010. The fiscal year 2010 budget 
request funds continued use of the ISS to enable the Agency to develop, 
test, and validate critical exploration technologies and processes and, 
in coordination with our international partners, to make the ISS 
available support other government entities, commercial industry and 
academic institutions to conduct unique research in the microgravity 
environment of space. It will also stimulate private sector development 
and demonstration of vehicles that may support NASA's cargo and crew 
requirements. And it renews NASA's commitment to aeronautics research 
to address fundamental aeronautics, aviation safety, air traffic 
management, and mitigating the impact of aviation on the environment. 
NASA's diverse portfolio of science, technology, engineering and 
mathematics (STEM) educational activities is also aligned with the 
administration's goal of improving American innovation and global 
competitiveness. NASA looks forward to working with the subcommittee on 
implementation of the detailed fiscal year 2010 budget request.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.

                           HUMAN SPACEFLIGHT

    Senator Mikulski. Thank you, Mr. Scolese. My areas of 
questioning will be in three categories, which of course, the 
Spaceflight and the reliability of our space transportation 
system for the remaining eight missions, space--the scientific 
endeavors that are supported in the President's budget which is 
really a robust commitment to science; and also, the 
acquisition issues.
    Let me go to the Spaceflight issue. The administration is 
committed to flying the Space Shuttle 8 more times to finish 
the Space Station. The budget assumes that this can be done by 
2010. The Shuttle program is a $3 billion a year program, so 
here is my question. One, can you envision a scenario where you 
would keep flying the Shuttle past 2010, and second, if you 
have to, if you can't complete the 8 missions, where will the 
money come from if the Shuttle flights have to be extended?
    Mr. Scolese. Yes, as I mentioned earlier----
    Senator Mikulski. In other words, do you have an ending 
date where you blow a whistle and the racks come down, and it's 
goodbye to the Shuttle?
    Mr. Scolese. No, we don't have an ending date. We are 
committed to flying the manifest, which is the remaining eight 
flights, we look at that regularly, almost weekly, to look at 
what our logistics chain is, and what's available and what the 
current situation is.
    As of today, we believe that we can complete those missions 
by the end of September 2010. Clearly, if we run into any 
serious difficulties, that we have to slip, and we would have 
to go beyond the September date.
    We don't foresee those at this stage of the game. We have 
margin in the date to September 2010. However, if we did have 
to slip, if it was a significant slip, months or more, we will 
have to find additional resources to cover that slip. And we 
would either have to come in and ask for an increase in the 
budget if we knew early enough about it, or we would have to go 
off and take resources from other parts of NASA.
    Senator Mikulski. But the administration is counting on 
these 8 flights to be done by 2010.
    Mr. Scolese. Yes.
    Senator Mikulski. And there is no contingency plan beyond 
that, except, ``If we get to it, we'll deal with it?''
    Mr. Scolese. Well, as I was saying, based on what we see we 
believe--that we can make that date. We have not working 
towards a date, I need to be careful about that--but our 
planning indicates that 2010 is a very achievable date.

                                 SOYUZ

    Senator Mikulski. Right, well let me move ahead, then.
    Let's go to the Soyuz, which is our only way that, if our 
astronauts get into difficulty, we can return them safely.
    There's been much in the press about the Soyuz, number one, 
its ongoing reliability, and also what they're charging us to 
do--to be this standby vehicle, which we're absolutely 
dependent upon. Could you tell us, number one, what is in the 
budget to--how many--what are we, essentially, what is our--
what is it that we're requesting of the Russians, how many 
Soyuz flight guarantees and, is the money in the budget to do 
that, and do you believe that those--that money is reasonable, 
or does it require some diplomatic negotiation?
    Mr. Scolese. Well, today we believe the money is 
reasonable. As you pointed out, we've been relying on the Soyuz 
for crew rescue since the initiation of the Space Station. So, 
it's always been a part of the program for that aspect of it. 
And, of course, following the Columbia tragedy, we were relying 
on the Soyuz to take our crew up to the Station and back.
    In the time between Shuttle retirement and the availability 
of Orion to take crew up and back, we will be relying on the 
Soyuz. We do not buy Soyuz, so to speak, we buy seats. We buy 
the training, the flight up, the flight back, and all of the 
logistics associated with a long-duration mission, and that's 
how we negotiate with the Russians. We're in the process of 
negotiating with them for the duration of that gap. And, to 
date, as we're saying, we're still negotiating, it's about $47 
million a seat, today. And the press has reported, but we're 
still negotiating, about $51 million for the future.
    Senator Mikulski. Well, my time has expired, I think that 
it goes through those. I do have workforce questions, and then 
science and acquisition, but let me turn to my colleagues and 
we'll come back for another round.

                           NASA'S SPEND PLAN

    Senator Shelby. Thank you, Madam Chair.
    The Congress explicitly provided $400 million to the 
exploration program in 2009 economic stimulus bill to close the 
gap between the Shuttle and constellation programs, as I 
understand it.
    It's my understanding that NASA's spend plan included the 
redirection of $150 million for new initiatives related to 
commercial, crew, and cargo. Based on what little detail we've 
learned from NASA, it appears these funds are for entirely new 
activities that have not even been formally presented or 
reviewed by the Congress. What's going on, here? What other 
options were examined for Ares and Orion with the $150 million, 
prior to it being proposed for commercial studies, as I 
understand it. Tell us what's going on, here?
    Mr. Scolese. Certainly. Of the $400 million that was 
appropriated, $250 million is being used to accelerate and 
improve the situation for Ares and Orion, by procuring long-
lead materials that we needed----
    Senator Shelby. Why do you need to use it all?
    Mr. Scolese. Well, I'll get to that. And certainly more 
would allow us to do more. We did look at the overall system 
when we came up with the plan, and we invested $150 million in 
commercial crew.
    It's broken into two fundamental categories--$70 million is 
something that will broadly support not only commercial 
activities, but all activities associated with the Space 
Station.
    One example of those is the human rating requirements. 
Human rating--we do these missions so infrequently that we need 
to go off and catalogue those so that anybody that wants to 
come to the Space Station will clearly understand what it is 
that we need to do. Anybody that wants to fly a NASA astronaut 
will understand how we want to fly.
    And then $80 million is available through competition, but 
first, we're going to go off and issue a broad area 
announcement to see if there is interest in providing 
commercial crew capabilities, and then we will--and only then--
will we obligate those funds.

                       SECTION 505 OF THE OMNIBUS

    Senator Shelby. It's my understanding that section 505 of 
the omnibus clearly prohibits funding for new activities. Did 
Congress approve what you're doing, here, for the redirection 
of the funds?
    Mr. Scolese. Well, we submit it as part of our operating 
plan, so----
    Senator Shelby. But you hadn't had an approval of it, had 
you? By the Congress.
    Mr. Scolese. Not at this time.
    Senator Shelby. Don't you think you need--if section 505 of 
the omnibus prohibits funding for new activities, did you 
consider that?
    Mr. Scolese. Well, I think we had authority to go off and 
work commercial activities, and that's what we're trying to do 
here, and we submitted it as part of the operating plan. I'd 
have to go back and look at the details----
    Senator Shelby. Will you check that for the record?
    Mr. Scolese. I will check that for the record, sir. Yes, 
sir.
    [The information follows:]

                Fiscal Year 2009 Recovery Act Spend Plan

    Section 505, Title V, Division B of the fiscal year 2009 Omnibus 
Appropriations Act (Public Law 111-8), states that ``None of the funds 
provided under this Act, or provided under previous appropriations Acts 
. . . shall be available for obligation or expenditure through the 
reprogramming of funds that creates or initiates a new program, project 
or activity.''
    Since NASA's initial Operating Plan defined the activities that 
would be undertaken by the Agency in response to the American Recovery 
and Reinvestment Act of 2009 (Public Law 111-5), the Operating Plan 
does not represent a re-programming from a previous baseline. The 
Recovery Act funds did not identify specific activities, so the initial 
Operating Plan represents the proposed baseline for these funds. While 
some of the specific activities may be new or identified uniquely for 
the first time, they are all supporting NASA's existing authorized and 
appropriated programs and projects.

                                 ARES-V

    Senator Shelby. Because some of the people on our staff are 
concerned about this.
    Ares-V delay--NASA has repeatedly stated that the 
constellation programs will continue as usual while the human 
space flight review is underway. While this may be true for 
Ares I and Orion, other facets of constellation--it's my 
understanding they're being held back. The heavy-lift vehicle, 
Ares-V, has been specifically delayed, pending an altered 
request due to the human spaceflight study, it's my 
understanding.
    If constellation is moving forward, then why is Ares-V, the 
heavy-lift rocket, that is essential to landing a man on the 
Moon, being delayed? This is unusual business. What's going on, 
here?
    Mr. Scolese. Well, you're absolutely right--Ares-V is 
absolutely critical if we're going to get humans back to the 
Moon, and outside of low Earth orbit, plus for other 
activities. We are not stopping work on Ares-V. There is 
continued work----
    Senator Shelby. You're still committed to Ares-V, aren't 
you?
    Mr. Scolese. I'm sorry.
    Senator Shelby. NASA's committed to Ares-V.
    Mr. Scolese. Oh, absolutely. We have to have that type of a 
vehicle, Ares-V, in order to get out of low-Earth orbit. And, 
in fact, work being done on Ares I is directly applicable to 
Ares-V, the solid rocket motor, the J2X engine in the upper 
stage, plus we have, you know, individuals at our space flight 
centers, also continuing to work on Ares-V.
    Clearly there could be implications as a result of the 
review that's going on this summer, but as the President's 
budget said, they want to return humans to the Moon, and 
there's only one way to do that, with the heavy-lift launch 
vehicle, and Ares-V is the one that's on the books today.
    Senator Shelby. How much of the $30 million for Ares-V in 
the 2009 bill will you spend? Will you spend that this year?
    Mr. Scolese. I expect that we will, but I'd like to get 
back to you for the record.
    [The information follows:]
                                 Ares-V

    The fiscal year 2009 Operating Plan contains $30 million for the 
Ares-V. That money is expected to be fully expended in 2010.

    Senator Shelby. You going to get back in the next 10 days 
or so?
    Mr. Scolese. Yes, sir.
    Senator Shelby. Does the action by NASA at that point, 
dealing with Ares-V delay indicate there's already a pre-
determined outcome, as it relates to Ares-V?
    Mr. Scolese. No. I mean, as I said earlier, the only way 
we're going to get out of low-Earth orbit is with a vehicle, 
and a substantial vehicle, and Ares-V is the one that----
    Senator Shelby. You've got to have it, hadn't you?
    Mr. Scolese. You have to have that type of a vehicle, yes 
sir.
    Senator Shelby. Okay.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Voinovich.

                             COST OVERRUNS

    Senator Voinovich. Thank you, Madam Chair.
    I'd like to first commend the Agency for a decision that 
they made a couple of years ago, and that was in regard to the 
Plumbrook facility. I was quite impressed with the fact that 
when I talked with Mr. Griffin about that facility, he was not 
knowledgeable about its potential or its condition, and the 
Agency had--along with Lockheed Martin--decided they were going 
to do something else in terms of testing the CEV.
    And I was impressed with the fact that he came out, and 
they looked at it, and NASA is investing, I think, some $54 
million into that, which will do the testing for a lot of the 
things that NASA's doing, and also put it in the position where 
they can take in some commercial work. I think that kind of 
work on your part is very important.
    I'm also concerned about the fact that Senator Shelby said, 
some of these overruns. And what does NASA do about these? 
What's does NASA do about these in terms of contractors, do you 
hit them over the head, trying to get them to perform? Is there 
any provision that says that if they have these overruns and 
don't make good on what they say they're going to do that they 
won't get further business from NASA?
    Mr. Scolese. Overruns--we work those very carefully, and 
yes, there are penalties for overruns, but we also have to 
understand what the reasons for them are. Sometimes it's due to 
underestimates in the beginning that we, indeed, plan for. And 
sometimes it's due to the fact that we change requirements. As 
you know, NASA is a research and development agency, we do 
things, typically, for the first time. And that requires 
learning as we're going along, so if we adjust the requirements 
it is not an overrun by the contractor, it is us adjusting the 
requirements, and adjusting the contract.
    Senator Voinovich. How often is that the case?
    Mr. Scolese. A fair amount. It happens relatively 
frequently. In fact, we tend to be the mission integrator, so, 
that will happen.
    But, the budget that you want to look at is the NASA 
budget--how much do we say, it's going to cost to do a 
particular mission. And then we work with our contractors, when 
a contractor does not perform there are penalties. There are 
severe penalties, including terminating the activity. We 
clearly report on contractor performance, so that future work 
is judged by past performance.
    But, we have to look first to see if we're changing 
requirements or if they're not performing.
    Senator Voinovich. You're confident that you're doing what 
anyone else would do in terms of these contractors?
    Mr. Scolese. Yes, I am.

                        U.S.-RUSSIA PARTNERSHIP

    Senator Voinovich. Okay.
    Recently I was in Brussels and heard Sergiev Levrov, the 
Russian Foreign Minister give a speech, and I was quite 
concerned about the tone of this speech. And I just wonder, in 
your negotiations with the Russians, in terms of the use of the 
Soyuz, have you seen any difference in attitude on their part, 
in terms of them being above-board, objective negotiators, or 
has this--I don't know--paranoia set in with their scientific 
agencies that you're working with?
    Mr. Scolese. No, we haven't seen it. Russia has been a very 
good partner with us on the Space Station, and in our space 
activities, and they continue to be a very reliable partner. 
So, we have not seen that.
    Senator Voinovich. In other words, you're dealing on a 
professional basis, with scientists, and the foreign policy 
thing hasn't entered into those negotiations? You feel that 
they're being fair and above-board?
    Mr. Scolese. Yes, I mean, we're linked very tightly on this 
Space Station. They can't survive without us, and we can't 
survive without them. And we work very closely together, and 
it's been a good and productive relationship over the last 
several years.

                       TEN HEALTHY CENTER CONCEPT

    Senator Voinovich. This undertaking of looking at the 
future of NASA, I think it would be very important for you to 
share with the folks that are doing this that, many of us are 
very happy with the 10 healthy center concept. And you know 
darn well there are people out there that are holding their 
breath, and hyperventilating, what are they going to get and 
what are they going to do? And I think the sooner that that's 
made clear to everyone, just what the deal is going to be, I 
think all of us will be feeling a whole lot better about 
things.
    So, if you could share that with--if you have any input 
from your organization, that was a--something that we really, 
all of us supported, you did a good job of assigning missions 
to the various agencies, and we'd like to know that that's 
still part of the program.
    Mr. Scolese. I certainly will. As you know, it's the people 
that make this all work, and we have some of the best people in 
the world, if not the best people in the world, in developing 
our spaceflight systems--human robotic and aeronautics. And we 
have some great capabilities in all of our centers, and we 
should utilize those to the fullest, and I'll make that known.
    Senator Voinovich. Thank you.

                   SHUTTLE WORKFORCE TRANSITION PLAN

    Senator Mikulski. Senator Voinovich raised some really 
important issues around workforce assurance, and also the 
acquisition and cost overrun issue.
    Let me come back to the workforce issues--one, with the 
retirement of the Shuttle. As you know, it is a source of great 
concern in the communities, particularly in Florida and in 
Texas. We're talking about thousands of people who've really 
served the Nation with fidelity and reliability, I mean, they 
really kept the Shuttle going. And the Shuttle's had 
challenges, including the return to flight after the 
Challenger.
    Could you tell us where NASA is in the workforce planning 
for this transition, and number two, is NASA, or the 
administration also in consultation with our colleagues and 
also the Governors of those respective States--it's a big deal.
    Mr. Scolese. Yes, and you're absolutely right--the people 
that have built and maintained this Shuttle have done an 
incredible job and are truly dedicated. We see it every day. We 
see it with the flight that's going on today. We're going to 
rely on them until the last Shuttle returns to Earth.
    Senator Mikulski. And they have to stay?
    Mr. Scolese. And they have to stay.
    Senator Mikulski. You know, so we're going to go ahead. I 
mean, I'm going to the edge of my chair, I'm going to sound 
like Bill Nelson, launching.
    Mr. Scolese. I think we probably very much agree on this. 
They are doing an incredible job, and we are doing a number of 
things to retain and retrain--where that's needed--the 
workforce. We need them, as I said, to continue to fly the 
Shuttle safely, and we're relying on that.
    So, in some cases we're doing retention bonuses, we're 
encouraging people to stay on that may want to retire or leave 
for other reasons.
    Also, we are looking at people engaged in work on Orion and 
Ares or other elements of Constellation, so they can look, 
today, and know they're working on the Shuttle, and know that 
they're already working on the next-generation system, so that 
they know they will have a job when they are done.
    For those people that may not be, available or may not be 
able to continue with the program, we're looking at other 
activities, other avenues for them, it may be at other centers, 
it may be retraining. That's what we can do within NASA.
    Outside of NASA, we're working with our contractors. We 
don't have as much insight into that, but they're trying to do 
the same thing there, as well, we're working with them to 
provide retention bonuses, to encourage them to offer people 
opportunities to work, not only on the Shuttle, but on the 
next-generation system, that they may be operating, whether 
it's Orion, or Ares, or a component of that.
    So, we're working, across the board to retain the workforce 
and retrain the workforce and allow for a smooth transition for 
those that may have to leave the Shuttle program at the end.

                               RETENTION

    Senator Mikulski. I feel very strongly about this, and 
again, knowing first of all, the fact is that we need them now. 
And we need them to stay. And if I were in the room with Peter 
Orzag, working on this, and the President's science advisor, 
looking at the future of NASA, I'd say, ``You know, everybody 
dumped buckets of money into the banks because they said we 
need their talent,'' well, they had no place to go. But here, 
we have these wonderful people who have a job that they're 
doing, and a job that we need them to do.
    So we're going to ask for quarterly reports from NASA on 
how this transition is going on. And I gather--because it will 
be a phase-down, but also for the retention now. And do you 
think that there are sufficient resources in your 
appropriations request to retain the workforce that we have 
during these last flights, taking us into the end of the fiscal 
year 2011, and to really properly retain them as we also are 
looking at those who wish to retire, and those who wish to be 
retrained, and those who wish to be redeployed within NASA.
    So, those are your, kind of, three tools, isn't it? 
Retirement, retraining, and redeployment?
    Mr. Scolese. Yes. And we do believe we have the resources, 
as I mentioned, retention bonuses and other activities to do 
that, but we're working specifically to make sure that we have 
people that can cover any issue that may come up with the 
Shuttle and its associated systems. So we are taking a very 
active look at making sure that we retain those--that dedicated 
workforce.

                                SCIENCE

    Senator Mikulski. Right. And, as you know, now with 19 
years, the Hubble servicing is coming to an end, and we have 
300 people who have really served the Nation well in Hubble, 
and we also want that same attention to detail with retention, 
and also looking at what are the other projects at Goddard.
    So, we would like to be in touch with the NASA 
Administrator on these issues.
    Let me go to science. And let's go to the President's 
desire, we believe, to have a green science initiative, I 
believe, is the way of talking about it.
    We are so proud, here, in this subcommittee, that we fund 
80 percent of all climate change science. We are the green 
committee. Senator Boxer and I have had talks about this. 
NASA's portion is $1.2 billion, including science that comes 
from Earth-observing spacecraft, and then there is NOAA that 
also does very important work on climate research--$325 
million.
    So, $2 billion is spent by the Government on climate change 
science, but $1.5 billion comes from this subcommittee.
    Let me go to what NASA's job is, and I would like, if you 
could, outline an inventory of the NASA projects in the budget 
request that will contribute to climate change science?
    Mr. Scolese. Certainly. As you know, we have a number of 
on-orbit satellites that are, today, contributing to our 
understanding of climate change, they're supporting not just 
NASA researchers, but researchers throughout the world.
    They're also supporting the operational agencies, as you 
mentioned, NOAA, USGS, other Department of the Interior 
organizations--Forestry, Agriculture. In addition, we have 
several missions in development, I could list some of them--the 
global precipitation mission is one, the Landsat data 
continuity mission is another. We have the decadal missions 
that are coming up, and we're very aggressively working to meet 
those.
    In addition, we have relationship with NOAA that is very 
productive, where we've been producing the polar orbiting 
environmental satellites. We launched the last one, NOAA and 
Prime in January, and it's working well on orbit, it's been 
turned over to NOAA. We have a GOES-O launch scheduled for 
later in June, that is coming up. We have the NPOESS 
preparatory project, which is we are working in collaboration 
with, not only NOAA, but also the Department of Defense, on the 
next-generation weather satellites.
    And while the Department of Defense is developing the Prime 
satellite, we were developing the preparatory project, which 
was intended to test out the capabilities, but now has become 
critical to the operational weather and climate communities, 
and we hope to launch that in the next year or so.

                         PRACTICAL APPLICATIONS

    Senator Mikulski. Well, first of all, that's impressive. 
That is really impressive. I think what the committee would 
appreciate, and also the Congress would appreciate, as it looks 
at climate change legislation, for us to have an inventory of 
these very important climate projects. We're also going to ask 
for the same inventory from NOAA.
    But what we want is not only a list of the projects, Mr. 
Scolese, but what is the information that we're going to get 
that will be useful to policymakers to really come up with 
really sound legislation to deal with the global climate 
crisis.
    As you know, there's been incredible debate over the last 
couple of years about science, junk science, and everybody's 
got their arguments about the climate change situation. We 
believe science should speak for itself, and that the facts of 
science should speak for itself.
    But, what the American people will want to know is, say, 
okay, we're going to spend $1.5 billion on science, and we've 
been spending it over time, and it's been enormously 
impressive. We would not know today about the global climate 
crisis if it were not for NASA. And then the very important 
work of NOAA, and our National Science Foundation.
    As we've met with environmental ministers from around the 
world, the size and scope of the NASA endeavor has enabled them 
to also do their science. What would be useful to us in the 
debate is to know what we can continue to contribute for our 
colleagues, so that decisions, recommendations, policy 
initiatives and policy flashing lights would come from our 
science. So, could we have that from you? Because the people 
really need to have that in plain English.
    We can hear GOES, NPOESS, they all have those names, et 
cetera, and I think it's often not seen. But we're ready to do 
legislation on the global climate crisis.
    Which then takes me to something else. After--presuming we 
do have legislation--do you see that it is our science that 
will also be able to provide ongoing monitoring to see whether 
we truly are making a difference? Will there need to be new 
things, or will what we're doing now be able to carry us, say, 
for the next 5 or 7 years?
    Mr. Scolese. Well, I think what we're doing now will 
probably carry us for the next 5 to 7 years, the answer to your 
question is will we be able to do monitoring? Absolutely. We're 
doing that today in various areas. For instance, in ozone 
monitoring, we use satellites to measure the ozone, and have 
seen, you know, an improvement in the reconstitution of the 
ozone layer.
    So, yes, our satellites can go off and provide a lot of 
that information, and will continue to do so. And I expect, as 
the decadal survey missions indicated, that we will need some 
new capabilities, as we gain new understanding and want to look 
at different effects, be they, solar effects or Earth effects, 
or, other climatological effects that we need to deal with.
    So, yes, our satellites can, and will, continue to do that, 
and as you know, our data systems are out there providing that 
data to researchers, as I said, around the world. So, as I 
said, we're getting an objective look at the data, as well, to 
inform the decisions of the policymakers.
    [The information follows:]

                         Global Climate Change

    Provide an inventory of climate projects. Identify the types of 
information from them that would be useful to policy makers, with any 
``flashing lights'' that would come from science results. Assess the 
sufficiency of monitoring activities over the next 5-7 years.
    See Attached.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Mikulski. Well, I think it's impressive. I'm really 
proud of NASA and what they've done in this. And they have been 
truly a tremendous voice to--not only scientists--but for those 
who have stewardships about their individual nations' futures. 
And NASA is really loved and appreciated because of what it 
does do, along with NOAA and the National Science Foundation.
    This, though, takes me then to other science, which is in 
addition to our Earth science, planetary science, astrophysics 
and heliophysics. Is there concern at NASA that, with our 
emphasis on green science, and also on dealing with the global 
climate crisis, that other scientific projects will be crowded 
out?
    You know, to keep the shuttle going, there was a lot of 
rearrangement of the money, and science suffered over the 
years. The President has made a significant investment in this 
year's budget, and we really appreciate this, because it's then 
not left up to the Congress to restore science, which it has 
been in the last decade.
    Mr. Scolese. We believe we have a balanced program and, of 
course, as you know probably better than most, there's always 
many more missions that people want to do, many more 
investigations.
    Senator Mikulski. Every science wants their own rocket 
ship.
    Mr. Scolese. But we believe we have a balanced program, and 
we'll be looking at that, and have it informed by the decadal 
surveys that are coming up, to establish those priorities and 
determine what we can do. I think you'll see heliophysics is 
going up, astrophysics is staying about the same, and planetary 
is about the same. So Earth science and heliophysics have a 
little bit better, and the others are kind of balancing out to 
historical percentages.

                        NASA EDUCATIONAL EFFORTS

    Senator Mikulski. Which then takes me to education. What is 
in the President's request for the NASA educational efforts?
    Mr. Scolese. I was going to say $125 million and David 
tells me it's $126 million. So, we have $126 million in that 
budget. It covers everything from, support for formal 
education, K-12, universities, grants for graduate students and 
undergraduates, as well as informal education, in terms of, 
support to museums and other activities along those lines. And 
we can get you the specifics.
    Senator Mikulski. Well, I understand that it is $126 
million, that there's been a reduction of $43 million. Do you 
know why, and what will go by the wayside with that $43 million 
cut, or would you like to go back and talk to your team?
    Mr. Scolese. I think I need to go back and talk to my team 
about that.
    [The information follows:]

                         NASA Education Program

    The fiscal year 2010 budget request for NASA's Education Program is 
$126.1 million, up from $116.0 million in the fiscal year 2009 request. 
As part of NASA's fiscal year 2010 budget request, the Agency preserved 
high-priority investments in Higher Education STEM (science, 
technology, engineering, mathematics) Education, K-12 STEM Education, 
and Informal STEM Education.
    Higher Education STEM Education includes STEM Opportunities, 
Minority University Research and Education Program (MUREP), Space 
Grant, and Experimental Program to Stimulate Competitive Research 
(EPSCoR). These projects will build, sustain, and provide a skilled, 
knowledgeable, diverse, and high performing workforce to meet the 
current and emerging needs of NASA and the Nation.
    K-12 STEM Education includes three main areas. STEM Student 
Opportunities engage and help retain students in STEM disciplines 
through flight opportunities, hands on research and engineering 
experiences, and increased knowledge of NASA science and technology 
content. STEM Teacher Development uses NASA's content and resources to 
provide pre-service and classroom teachers with learning experiences to 
build STEM skills and better motivate students to pursue STEM careers.
    Informal STEM Education supports NASA Center efforts involving 
scouting groups, community based organizations, and other informal 
education providers who use NASA content to engage their audiences in 
STEM experiences. NASA also supports the Nation's museums, science 
centers and planetariums in developing innovative educational 
experiences that help the American public understand NASA's exploration 
mission.
    A summary of NASA's fiscal year 2010 request for the Education 
Program follows:

                                           FISCAL 2010 BUDGET REQUEST
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                       Fiscal     Fiscal
                                     year 2008  year 2009    Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                       actual    enacted   year 2010  year 2011  year 2012  year 2013  year 2014
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2010 President's             146.8      169.2      126.1      123.8      123.8      123.8      125.5
 Request...........................
                                    ----------------------------------------------------------------------------
Higher Ed. STEM Education..........       92.0      107.7       80.6       80.6       80.6       80.7       80.7
K-12 STEM Education................       41.3       47.5       43.3       41.0       41.0       41.0       42.7
Informal STEM Education............       13.5       14.0        2.1        2.1        2.1        2.1  .........
Fiscal Year 2009 President's Budget      146.8      115.6      126.1      123.8      123.8      123.8  .........
 Request...........................
                                    ----------------------------------------------------------------------------
Education..........................      146.8      115.8      126.1      123.8      123.8      123.8  .........
Total Change From Fiscal Year 2009   .........       53.6  .........  .........  .........  .........  .........
 Request...........................
----------------------------------------------------------------------------------------------------------------

    Compared with NASA's fiscal year 2009 budget request, the fiscal 
year 2010 budget request includes increases for:
  --Higher Ed. STEM Education (+$14.202 million)
  --K-12 STEM Education (+$4.365 million)
  --Informal STEM Education (+$0.113 million)
    NASA's fiscal year 2010 budget request does not include 
continuation of fiscal year 2009 Congressional augmentations for:
  --Global Climate Change Education (fiscal year 2009 +$10 million)
  --K-12 Competitive Educational Grant Program (fiscal year 2009 +$16 
        million)
  --Science Museums and Planetarium Grants (fiscal year 2009 +$7 
        million)
  --NASA Visitors Centers (fiscal year 2009 +$7 million)
  --Space Grant (fiscal year 2009 +$12.268 million)
  --EPSCoR (fiscal year 2009 + $11.72 million)
    NASA will be able to address the intended outcomes of these 
initiatives, as well as NASA's stated education goals, through programs 
for which the Agency is requesting fiscal year 2010 funding.

    Senator Mikulski. Let me say why I'm raising this. I'm a 
big supporter, as you know, of the National Academy of 
Sciences, and this is why we so like the decadal studies, that 
we're guided by--in our endeavors and what we should be 
exploring and doing through the National Academy of Sciences, 
then it's not out of politics or State interest and so on, that 
we're really working for the Nation.
    And, in the ``Rising Above the Gathering Storm'', another 
Augustine-led effort was, we talked about how could America 
maintain its competitive edge, how could we continue 
innovation? And they talked about a triad of increased money 
for research, really a focus on education, K-12, to make sure--
even earlier--that our young people focused on so-called STEM 
disciplines, science, technology, engineering, and mathematics, 
and that we have an innovation-friendly government, patent 
reform, tax policy.
    Education, here we're doing all this fantastic research, we 
have a President that's making major investments in education, 
and through his own charisma, and that of the First Family, are 
creating, I think, a renewed interest in education. Their own 
girls, the way they feel about the rest of America. How can we 
use now, the power of NASA, while we're doing the research 
part, and our job of being innovative-finally, to be part of 
education?
    I feel that education at NASA has not been as sharply 
focused, and perhaps not as wise in its use of dollars, when 
we've got not only a great story to tell about education, but a 
great way to motivate our young people to be interested in 
that. I want to hear from the astronauts because of their 
courage, the spectacular thing they've done, but I want people 
to think, ``Wow, there's a telescope, that I use the pictures 
in my classroom, and there's an astronaut that maybe I'm going 
to be, or maybe I'm going to work at Houston and work that's 
going to happen on the space station, to find a cure for breast 
cancer,'' which is challenging one of our most beloved 
colleagues here.
    So, you see where I am? I'm into motivation, I'm into 
inspiration, using this story. So, where--what do you see about 
this?
    Mr. Scolese. Well, I agree, clearly, the program, as I 
mentioned it, it tries to encompass all those things in various 
forms, with our teacher training programs that we do. We try 
and bring teachers down to launches, so that they can see 
what's actually going on, along with going out and providing 
forums where teachers can come in for the summers, for 
instance, and participate at NASA Centers, to learn about what 
we do and how we do it. That's sort of on the formal training 
program of the teachers.
    We have the grants students in minority universities, as 
well as in other universities, to encourage undergraduate and 
graduate work. As you mentioned about, the informal education, 
you know, encouraging museums in getting NASA content and 
activities out, so that the broader public can see them.
    And of course, directly, as our people go out there and 
talk to students, astronauts, scientists, engineers are out 
there talking at schools as well, and we encourage that as part 
of what we do as an agency, because we do realize the strong 
motivation that people see when they get to meet somebody that 
flew in space or somebody that works at NASA and does some 
interesting stuff.
    I, myself, even had an opportunity to talk to a bunch of 
seventh grade students just a little bit ago----
    Senator Mikulski. Harder than testifying before Congress?
    Mr. Scolese. Yeah, they ask some interesting questions. But 
the good thing, and this is going to be kind of funny, is that 
the NASA portion of it, which I did, was rated against 
everybody else, and we beat out the mortician and the fireman. 
So, we ended up doing pretty good in the view.
    But, actually is something that when people can get out 
there and see the looks on the students when they see what we 
can do, is really great.
    So, I think we're doing all of those things, and we'll get 
you a better detailed list.
    [The information follows:]

                         NASA Education Program

    The President's fiscal year 2010 budget request for NASA's 
Education Program is $126.1 million, up from $116 million in the fiscal 
year 2009 request. The Office of Education administers national 
education efforts that draw on content from across the Agency. It also 
disseminates education content and activities developed by the Mission 
Directorates, Centers and education partners.
    The NASA Education Program addresses three outcomes:
  --to strengthen NASA's and the Nation's workforce;
  --to attract and retain students in STEM disciplines; and
  --to engage Americans in NASA's mission.
    As part of the fiscal year 2010 budget request--Education projects 
have been reorganized into three programs to better meet the needs of 
targeted audiences:
  --Higher Education STEM Education;
  --K-12 STEM Education; and,
  --Informal STEM Education.
    NASA's Higher Education STEM Education budget supports the targeted 
development of individuals who are prepared for employment in 
disciplines needed to achieve NASA's mission and strategic goals. 
Graduates of these projects have had in-depth and hands-on experience 
with research and engineering that support NASA's scientific and 
exploration missions. Experiences include NASA/industry internships, 
scholarships, competitions, and engineering design work. These 
students, drawn from national audiences, are interested in, prepared 
for, and able to contribute immediately to the NASA/aerospace 
workforce.
    The Office of Education budget builds academic infrastructures and 
supports NASA-grounded research that builds the scientific and 
engineering competitiveness of the Nation. These investments also build 
the future STEM workforce by providing future workers the opportunity 
to contribute to research of interest to NASA. Target audiences in 
research capability-building include community colleges and Minority 
Serving Institutions (MSI's). This type of efforts is funded through 
both the HE and the MUREP budgets.
    K-12 STEM Education activities are based on NASA missions and 
stimulate excitement in students. Educator training and professional 
development programs improve teacher proficiency and confidence in 
teaching NASA and STEM content. Education technologies that foster 
educator training and student engagement opportunities are developed 
through the K12eED Program, but the tools and infrastructures serve all 
NASA Education programs.
    NASA Informal STEM Education programs build STEM-interest in the 
general public by providing NASA exhibits, workshops, and special 
activities at museums, science centers, planetariums, and the 
activities of community organizations and clubs.

    Senator Mikulski. Well, I think that's very interesting. 
What I would like to ask, is that you make available, the Dr. 
Joyce Winterton, Assistant Administrator for Education, to meet 
with our staff so that we really have an idea of the 
comprehensive scope that you are doing, and how we can be 
supportive of that in, again, looking at the National Academy, 
``Rising Above'' the Gathering Storm. And when they looked at 
the education of students, they looked at exactly what you 
said, teacher training, and how we can help with that. And 
then, hands-on kinds of things for young people to be able to 
either see or witness, and so on the inspiration part of NASA.
    And number three, what is it about the development of 
curriculum and so on that you can help? One of the things that 
really so touched me about what NASA did--and I'll just tell 
this little story.
    Dr. Weiler, as you know, Mr. Space, science, and Goddard, 
et cetera, used part of his education budget to work with the 
National Federation of the Blind in Baltimore. And working with 
the National Federation of the Blind in Baltimore and the 
National Air and Space Museum--the space part of the 
Smithsonian--they developed a textbook for blind children on 
astronomy. And it's called ``Touch the Invisible Sky.''
    Now I have seen the textbook, and the Federation is 
headquartered in Baltimore, and what that has meant to boys and 
girls, and what it's meant to parents, where their children can 
learn science, and actually touch the Hubble, and also think 
about careers in science, where particularly those things in 
the digital world that they could participate. This is--this is 
stunning, and it will--it impacts thousands of lives. So, we 
appreciate that.
    Mr. Scolese. Thank you.

                          ACQUISITION PROCESS

    Senator Mikulski. I'm going to have one other set of 
questions related to acquisition, and then--what time--what 
time do we link up with Atlantis? Twelve twenty-nine? I'm 
afraid to let everybody go, it's my Catholic school education, 
that if you go, you won't come back.
    And, here's Bill Nelson, Bill we've got a few minutes, 
here. We're actually not going to be early, but we're just 
asking questions about cost difference.
    Do you want to explain to Senator Nelson where we are while 
I finish?
    Senator Voinovich raised the question about the acquisition 
process. Do you think we need a Commission on this? Do you 
think with acquisition cost overruns and schedule upages, we 
need a national Commission, where an effort like the Pentagon 
has just completed with their acquisition?
    Mr. Scolese. I'm not sure we need a national Commission on 
it. I can tell you what we are doing. The Government 
Accountability Office, of course, has been reviewing NASA, and 
we recognized the issues that are associated with acquisition 
and acquisition reform. One of our biggest is the early cost 
estimates for our missions. There tends to be a lot of 
exuberance and enthusiasm for the missions, and as a result, we 
tend to say we can do more for less than we can really do it.
    So, we're working very hard to fix that very early portion 
of it. And that's a combination of working with our colleagues 
in the external community, in the science community, as well as 
working internally to develop better cost estimates, and we're 
doing that. With the National Academy, we're sitting down so 
that they can develop better cost estimates, we can work with 
them so that we can develop them. We can develop cost estimates 
that can be compared against each other, as opposed to having 
one estimator do it one way, one group do it another way, we 
can get them all on common footings, so that we can look at 
them in terms of a common base, to understand which is really 
more expensive or more risky than the other.
    In addition, we've revised our acquisition strategy. We now 
have essentially three meetings that we do before we go off 
with a procurement. One to look at what it is that we really 
want to accomplish and do we have the resources to accomplish 
it, both within NASA and in the industry as a whole. Is it 
available to us? Because often times we find out that we start 
something before we have the people or the resources available 
to support it. And then we develop the best way to go off and 
procure that, whether it be a fixed-price activity, and in-
house activity, where it's built within NASA, or whether we go 
out of house to contractors.
    In addition, we're looking at how we monitor our 
performance, so that we can catch problems early, rather than 
finding them out late in the game when they're very expensive. 
So we're having monthly reporting, so that we can go off and 
look at all of those activities. And of course, we're working 
with industry and academia to go off and address those from 
their perspective as well.
    So, that's what NASA is doing, and we're working with our 
colleagues in other agencies, most closely with NOAA, of 
course, because we buy some of their satellites.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski. Well, thank you, again. I want to just 
thank you again for your service. I'm not going to recess the 
committee. What I'm going to do is ask you some questions about 
the Hubble.
    Mr. Scolese. Okay.
    Senator Mikulski. Then I'm going to, essentially, as we get 
ready to link up with Atlantis, talk about the biographies of 
the astronauts, and I'm going to ask our colleague--we're happy 
to be joined by our colleague, Senator-astronaut Bill Nelson, 
to, perhaps while we're waiting to hook up, you might talk 
about what it feels like to be an astronaut. Everybody sees it, 
they see it weightless, et cetera, but you've actually known, 
in our conversations, it can be pretty dangerous. And so, by 
that time, we'll be ready to hook up with them, and we would 
also invite you to engage in the conversation with them.
    So, we're getting ready now and lining up to connect to our 
astronauts, on the Atlantis mission.
    You've watched Hubble, and I am so proud of Hubble. You 
know, it's gone where no telescope has gone before. It's taken 
us to pictures of galaxies, and the great information of the 
Hubble has gone out to people in school--the scientists and 
school children around the world, whether it was in south 
Baltimore or South Africa. And, what I would like, if you could 
share with us, from the science viewpoint, what you think have 
been the major accomplishments of the Hubble mission?
    Mr. Scolese. Probably the most significant accomplishment, 
as I look around, is the inspiration it's given to people to go 
off and pursue science, engineering, math, technology careers. 
You look at every textbook and you see a Hubble image, whether 
it's, of some planetary nebula or some nebula someplace, or 
just the Hubble Space Telescope with an astronaut floating next 
to it. It just has an incredible encouragement to people, to go 
off and do those things, because it does represent an icon.
    When Hubble was first launched, you remember, more than 
anybody else, the difficulties that we had when it was first 
launched, and the perseverance----
    Senator Mikulski. You mean when it went up and it wouldn't 
work?
    Mr. Scolese. When it went up and it wouldn't work. I didn't 
want to say it quite that way. It was the techno-turkey of the 
time, yet it was resurrected.
    Senator Mikulski. That was my phrase.
    Mr. Scolese. Yes. It's been resurrected and I think people 
have seen that and recognized that with hard work and 
perseverance, you can overcome almost anything. And watching 
our crews, just this week and in previous weeks, we tend to get 
most of our attention with Hubble missions, because they are so 
dynamic, they are so interesting.
    We can practice and practice and practice, yet at some 
point in a mission, you always know that something's going to 
come up that wasn't quite the way you practiced it. And I'm 
sure Mike Massimino how he had to use some elbow grease to 
remove a handrail.
    So, I think that's probably our biggest contribution, 
because I see it when I talk to children and I see it when I 
talk to people who are now graduates from college, that, you 
know, looking at the Hubble. In my generation it was going to 
the moon. I think in this generation it's been, you know, what 
the Hubble Space Telescope can do.
    And then, of course, I can't do the justice that an Ed 
Weiler could do to how it's revolutionized our understanding of 
the universe. But it clearly has done that. It's rewritten 
every textbook that's been out there in astronomy and 
cosmology, and to some extent, in physics as well.
    Senator Mikulski. Well, I understand that the Hubble has 
led to 7,000 scientific papers, and that the information on 
Hubble, even that which continues to be analyzed, could fill 
two Libraries of Congress, and has taken us to the discovery of 
new galaxies, and also the whole issues of black holes and dark 
energy, things that will help us understand the universe, and 
in understanding the universe, understand physics, quantum 
physics, tremendous scientific expansion----
    Mr. Scolese. All those.
    Senator Mikulski [continuing]. That then enable us, also, 
to go to far more practical implications. Isn't that correct?
    Mr. Scolese. Absolutely. I'm surprised it's only 7,000, 
considering all the things that it's done.
    Senator Mikulski. The other thing that was required, in 
addition to the astronauts, was these tools. When one goes into 
space to do this work, because what the Hubble did on this 
mission, was five space walks, and that's what we're going to 
talk with them about, five space walks that took hours. It's 
just not like suiting up and walking out and--did you do space 
walk or did you stay inside?
    I think I'd stay inside, too. Could you imagine trying to 
find a little space suit in, you know, in 14 petite? Well, they 
did it for Sally and some of the others.
    But anyway, could you tell us about the technology that was 
developed to be able to refurbish the Hubble?
    Mr. Scolese. Just an incredible number of tools. For every 
mission, one has to think about, taking a screwdriver with a 
ski glove on, and a pressure suit, where you're in a balloon 
trying to move in order to do this work. So, it's not at all 
like putting a suit on or just having a glove on, it's 
pressurized, and you're fighting that each and every time you 
move. And the astronauts can describe it a heck of a lot better 
than I can describe it. But that's the limitation that one has 
to work with.
    And then think about the fact that you can't see 
everything. You've got this hood over your head. So, you have 
to develop tools that will allow the crews to be able to work 
with those limitations, limitations in viewing, limitations in 
their ability to grasp things. So every mission, you have to 
come up with a new set of tools, a new set of guides to allow 
them to see where they want to go. And this mission was no 
different, to go off and do that.
    Then you have to remember you have to take the power with 
you. It doesn't come along, you can't plug it into the wall 
like our Black and Decker, these are largely battery-operated. 
So while they're floating around in space, they have to have 
these tools. When they remove a screw, they have to capture it, 
otherwise it's going to go floating around in space. Because on 
this mission, and on other missions, we repaired things that 
weren't designed to be repaired in space. If you design it to 
be repaired in space, you'll have big fasteners that you can 
grasp with a gloved hand and everything will stay in place.
    We were removing hundreds, 150, 160-some screws, little 
screws, that if they got into the wrong place----
    Senator Mikulski. Talk about having a screw loose.
    Mr. Scolese [continuing]. Yes--they could damage the 
telescope or damage the orbiter or damage the suit that the 
astronauts were in.
    So, in addition to being able to remove the screw, we had 
to make sure that that screw didn't float away and go someplace 
we didn't want it to go. So, we had components that allowed us 
to capture those screws.
    And then, as we mentioned, think about pulling a circuit 
card out of your computer, if you've ever had to go off and do 
that, put in a board for graphics if you wanted to do gaming or 
something along those lines. And think of how small that is. We 
had the astronauts retrieve that.
    Needless to say, they couldn't use their gloved hand, so we 
had to develop a tool that would allow them to go in there, 
grasp it, pull it out, and then put a new box in.
    So, there's an incredible amount of effort with the 
engineers on the ground developing these tools and 
understanding what's going on, working with the astronauts to 
refine those tools so that they can use them effectively. And 
then, while the mission is going on, adjusting when things 
change.

                    SPACE SHUTTLE CREW INTRODUCTION

    Senator Mikulski. And it's the big deal.
    What I'd like to do now is--first of all, that was an 
excellent description--I'd like to talk about these astronauts 
and who they are, as we get ready to connect to them, a few 
words about, really, what they did, just as you've described 
it. And while we're waiting, in the 4 minutes for the hookup, 
as you said, this is not a Swiss watch factory, to connect to 
them.
    Well, first of all, there were seven astronauts, and of the 
seven, three had been on previous Hubble experiences. One is 
Scott Altman, he's the commander of the mission. He flew the 
Shuttle during its capture and release of Hubble. He was also 
the commander of the last Hubble servicing mission, in March 
2002, when we installed that Hubble advanced camera that made 
the mission worthwhile.
    The other is John Grunsfeld, who's considered like one of 
the fathers or godfathers or grandfathers of the Hubble. He led 
the space walking team, and he's conducted three space walks, 
in addition to the five others he did on previous serving 
missions. He's done two previous Hubble missions, in December 
1999 and March 2002, which was so important, again, to reboot, 
reinvigorate Hubble.
    And then there's Mike Massimino, who will be leading the 
conversation today. Now he's conducted two space walks, and 
guess what? He's the first astronaut to Twitter from space. Oh 
boy, engaging thousands of people and he also was the one who 
persevered during Sunday's nail-biting, hold your breath, oh my 
gosh, Sunday space walk. And I've never been so glad ever to 
hear someone say, ``Disposable bag, please,'' which said that 
he had accomplished it. He had to deal with a stuck bolt, a 
tool battery that died, but he kept on going. Mike flew on the 
last Hubble servicing mission in March 2002, again, when we did 
that advanced camera.
    Now, we've had three other Hubble astronauts on their first 
shuttle mission. Megan McArthur, one of the women on the trip, 
operated the shuttle's robotic arm during the capture and 
release of the rejuvenated Hubble. She became an astronaut in 
2000. She has an unusual background. Dr. McArthur has a Ph.D. 
in oceanography and worked at the Script's Oceanographic 
Institute, so, from inner space to outer space.
    We have Drew Feustel, who conducted three space walks, and 
on the third space walk--that was Saturday--he and Grunsfeld 
installed that new spectrograph that looks deeply into the 
early universe how profound. He became an astronaut in 2000, he 
began his education at a community college, he worked as an 
auto mechanic, and now he's a mechanic in space. He then went 
on to an undergraduate degree and a masters in Earth science 
and geophysics from Purdue, and a Ph.D., specializing in 
seismology, from Queens University in Canada. These are 
incredible backgrounds.
    Then there's Greg Johnson, the pilot of the mission. He 
orchestrated the photographic and video documentation of the 
mission. He became an astronaut in 1998. He's a Navy captain, 
he landed on 500 carriers, and we're going to count on him to 
land safely and smartly tomorrow, at around 10 o'clock eastern 
standard time.
    And last, but not at all least, Michael Good, who conducted 
two space walks, including Sunday's, which lasted more than 8 
hours. It is the sixth longest NASA space walk in history. He 
comes as Air Force colonel and a test pilot.
    We're about 2 minutes away, and as you can see, this is 
really an incredible amount of talent, and also, talent and 
dedication and courage and diligence. So, that's who we'll be 
talking to in space, the very first hearing from space. And as 
we get ready for our uplink, I'd like to turn to our astronaut-
Senator, Bill Nelson.
    And Senator, if you could share, maybe, your thoughts on 
this occasion, of the rejuvenation of Hubble, and your own 
experiences in space?
    Senator Nelson. Madam Chairwoman, this is----
    Senator Mikulski. And this is the way we ought to be at the 
table, I might add, authorizers and appropriators, not only 
celebrating, but really working together for the good of the 
country.

                        THE ASTRONAUT EXPERIENCE

    Senator Nelson. And thank you for this opportunity, Madam 
Chairwoman. This is an incredible example of the interlinking 
of humans and machines, to accomplish great things. As you were 
reading the biographies of these astronauts, they are 
exceptionally qualified people, they are, all of them, 
overachievers, and yet, they are just the visible example of a 
space team that is, every one of them, overachievers.
    A lot of that team is in your State, at the Goddard Space 
Flight Center, and this particular mission is symbolic of the 
expertise at Goddard, that putting together all of those with 
the team that gets them up there, that creates the vehicle to 
get them there, and then to do the work once in orbit.
    Now, in this case, these astronauts have not had a minute 
to spare, every minute is scheduled. As a matter of fact, 
usually it's very typical of crews that they have to fight for 
time to get to the window to gaze back at this incredible 
creation that we call our home, the planet. In our particular 
case, I had to cheat on my sleep to find time, just to go and 
float in front of the window, and see our home.
    One of the greatest examples of this teamwork, came out of 
tragedy, Madam Chairwoman, and that was Apollo 13.
    Senator Mikulski. Right.
    Senator Nelson. We thought that that was going to be three 
dead men on the way when that explosion occurred on the way to 
the moon, and yet that incredible team, on the ground, working 
with the astronauts in real-time, who's lives were on the line, 
we brought them back and brought them back safely.
    And so, what these new lens, these new computers, these new 
instruments on Hubble are going to do for us, is help us gaze 
out even further, to sample cosmic rays and understand in 
greater detail, what is this infinite place called the 
universe, and how do we relate to it. And that's why I'm so 
excited for the success of this mission.
    Thank you, Madam Chairwoman.

                    SPACE SHUTTLE ATLANTIS TESTIMONY

    Senator Mikulski. Well, that was really eloquent, and it 
shows how--to be an astronaut, you have to be daring, you have 
to be courageous, you have to be agile.
    So, anyway, that was a great job, and now we'll just wait 
to hear from Houston, a familiar sound to you.
    Now remember, we're going to be able to see the astronauts, 
but they can't see us. This is going to be for them, an audio 
link.
    Mr. Ventry. Atlantis, this is Houston, are you ready for 
the event?
    Astronaut. We are now ready for the event. Voice check.
    Mr. Ventry. Atlantis, this is Don Ventry at the U.S. 
Senate, how do you hear me?
    Astronaut. Space Shuttle Atlantis has you loud and clear, 
sir.
    Mr. Ventry. Atlantis, please stand by for Senator Barbara 
Mikulski.
    Senator Mikulski. Hello to all of our astronauts on Space 
Shuttle Atlantis. You are taking part in something quite 
historical, not only have you given the Hubble a new life, but 
you're going to give the Senate a new lease on life. You are 
the very first astronauts to testify from space, at an official 
hearing.
    I'm joined by my colleague, Senator Bill Nelson, a brother 
astronaut to you. I'm going to lead off the conversation by 
first of all, thank you for this stunning and successful 
mission. As you closed the hatch on the Hubble, you have now 
opened a new door to a new era of scientific discovery.
    Hubble is the people's telescope, and it wanted to have 
another chance to be able to educate a new generation of 
scientists and school children. What you've done to refocus and 
recharge the Hubble Space Telescope is appreciated. We 
appreciate the daring and the difficult and the dangerous 
things that you've done to install the cameras, the computers, 
the batteries, and the gyroscopes.
    Hubble is the greatest scientific instrument since 
Galileo's telescope, but you are some of the greatest 
astronauts that we could get hooked up with.
    We want to hear from you about what those experiences are 
like, but before I do, Bill, Senator Nelson, did you want to 
say something to your brother astronauts in space?
    Senator Nelson. Hey guys, I wish I were up there with you.
    Senator Mikulski. So, Mike Massimino, are you the one 
that's going to lead it off?
    So, okay, well that works, we see you very clearly. I feel 
like--if only the Hubble is going to work as good as this link.
    So tell us, what was it like to be up there? What was the 
greatest nail-biting thing that you had? What were those space 
walks like? What's it been like up there?
    Mr. Massimino. Well, Senator, I'd just say, first of all, 
we're very honored to be able to appear before the committee 
today. It's an honor for us, it's also an honor to be part of 
this mission. Many people worked very hard on it, including all 
the folks at Goddard, and of course, your efforts, Senator, 
keeping Hubble alive, are much appreciated. We're a beneficiary 
of that vision that you share with all. Hubble is a part of the 
spirit of exploration that I think is an American dream we all 
share. So, thank you so much.

                         HUBBLE REPAIR MISSION

    Senator Mikulski. Well, tell us, what was the most--for all 
of you to jump in--what were some of the most thrilling moments 
of the mission, what were some of the most nail-biting? We sure 
liked that disposable bag comment, because we knew you had been 
able to fix that whole computer situation. Mike?
    From what I see, we're getting a lot of enthusiasm.
    Mr. Massimino [continuing]. Ground trying to help us. When 
I wasn't able to get the bolt to turn for the handle, to take 
the handle off, to continue with the repair of the instrument, 
the space telescope imaging spectrograph, and we had practiced 
this so many times as a crew, to do this repair, and never 
expected--we try to think of every problem we could come up 
with, and we were prepared, I thought, for everything, but we 
never expected that particular bolt to give us trouble. And 
when it did, and when we started getting the suggestions from 
the ground, I really thought that we were in trouble. I 
couldn't see how we were going to be able to continue the 
repair at that point.
    But, the folks at the Goddard Space Flight Center did a 
great job, along with the folks at the Johnson Space Center, 
and people from around the country, I'm sure, were all 
involved, trying to figure out how we could do this. And we 
didn't have much time because we were running late into this 
space walk, but they figured out a way for us to fix it, we got 
the tools we needed, and we were able to get access to the 
board by breaking off the handle in a way that we would never 
have imagined to do it. When we launched, we never thought we'd 
have to do that, but we did it.
    And for me, that was a feat, that we could continue----
    Senator Mikulski. Well, listen, Space Shuttle Atlantis, 
we're having a hard time hearing you.
    Mr. Massimino [continuing]. Nail-biters out there, to be 
sure.
    Mr. Johnson. Senator Mikulski, this is Greg Johnson, the 
pilot. It, too, is an honor to testify before your 
subcommittee. I can tell you, from the flight deck, Scooter and 
I and Megan were watching, and every single EVA, to me, was a 
nail-biter. I was trying to photo document them, some of it 
with IMAX, and the two points that really come to mind are 
Bueno closing the door when the arm started to slip, as he 
pushed as hard as he could.
    And then Mike Massimino going to get contingency tools, in 
areas that he hadn't really gone to before, and then breaking 
that bolt. You should have seen the action out the back window, 
it was--I'm sure it was better up close, but from the pilot's 
perspective, I was on the edge of my seat the--all five EVAs, 
actually.
    Senator Mikulski. Dr. McArthur, did you want to say 
anything?
    Mr. Johnson. And I guess I'll let Megan comment, and then 
if you have any more questions for----
    Dr. McArthur. Yes, ma'am.
    Hello, Senator Mikulski, and Senator Nelson, and all of the 
Senators on the committee. It's great to be chatting with you 
today about our experiences. I think you've heard a lot about 
how the EVAs were pretty much all nail-biters, and that's 
certainly true. Those guys did great work out there though, and 
we're real proud of them.
    Operating the arm, that was my primary task during the 
flight, and it actually went very nominally, very much as 
expected and as we had trained, it's pretty incredible to me to 
be thinking about this amazing stuff that we're doing, moving 
this giant telescope around in space with a robotic arm, and 
have it be nominal. So, I just take away that sense of wonder 
at doing the incredible and having it be nominal, that's sort 
of the big impression that it has made on me.

                         HUBBLE'S CONTRIBUTIONS

    Senator Mikulski. Well, guys--first of all, thank you. It's 
really exciting to hear you. And we really, again, want to 
salute your daring and your bravery and your courage.
    And this takes me to a question about all of your work, 
personally. You know, you've been training for this now for 
several years. You've had the support of devoted families and 
we've had delayed takeoffs, setbacks, challenges in space. My 
question to you is, when you've literally put your lives on the 
line for this scientific endeavor. Could you tell me why you 
wanted to service the Hubble, and why, knowing at times, the 
uncertainty of the risk involved here, that you were willing to 
risk your lives to fix an aging telescope who seemed like its 
best days were behind it?
    Astronaut. Senator, it's really wonderful to appear before 
your committee and all the Senators there today. I really 
appreciate you taking the time to hear us.
    You know, Hubble really has struck a fundamental chord in 
the human hearts around the world. It would be hard to find a 
K-12 school room anywhere in the United States of America that 
doesn't have a Hubble picture up on the wall.
    From a science perspective, as you opened the hearing, it's 
probably the most significant scientific instrument of all 
time, in terms of its productivity. And astronomers try and 
answer, using Hubble, fundamental questions that we've had, 
since the beginning of human history. Where do we come from? 
Where are we going, what's the history of the universe, what is 
the stuff that we're made of, how was it made, what's the 
universe made of? All these very, deep philosophical questions 
that everybody has a curiosity about.
    That's what Hubble and the other science, basic science 
that we do in this great country is all about. And Hubble is at 
the pointy end of that. And so, from a perspective of risk, we 
all take risks every day, driving up 295 to Baltimore, there's 
a certain risk there every morning in the commute. And we don't 
think about those risks, we think about the risks when, the 
stakes are a little bit higher, as they are for our space 
program. But when you look at the importance of what we do, 
things like Hubble, the International Space Station, our 
exploration program, our climate observing, observing the 
Earth, the dynamic Earth, all of these things are so very 
important to our country and to the world, that the risks are 
definitely worth it.
    Astronaut. And I would just add, quickly, that we're not 
leaving an aging telescope, we're leaving a newly refurbished 
telescope, with new instruments, instruments that have been 
repaired, a telescope that is now at the apex of its 
capabilities, and will be for a long time to come.
    Senator Mikulski. Bill, did you have a question?
    Senator Nelson. Hey guys, I just want you to know that you 
have made the spring in the step of every American a little bit 
bouncier by what you all have accomplished. And, what you said 
about us understanding this universe that we are a part of, and 
where did we come from, is now going to be better understood by 
the success of your mission. So, congratulations to all of the 
team.
    Senator Mikulski. I, too, want to conclude this 
conversation, by again thanking you for your dedication, your 
sense of duty, and you really--when we talk about the Hubble 
and giving it, essentially, a new life and a new way of going 
and seeing the universe, you've touched our hearts, and you've 
also made history.
    We want to wish you a very safe landing, and we look 
forward, Senator Nelson and I, to welcoming you at the Capitol, 
where we can give you a great big Hubble hug, and welcome you 
back home.
    This concludes our part of the conversation.
    Mr. Massimino. Thank you very much, we've enjoyed it.
    Mr. Ventry. Atlantis, this is Houston ACR. That concludes 
the event, thanks.
    Mr. Massimino. Thank you, Senator Mikulski.
    Senator Mikulski. Wow, wasn't that a hearing?
    And, Senator Nelson, we were glad you were here.
    Senators may submit additional questions for this 
subcommittee. We're going to request NASA's responses within 30 
days.

                          SUBCOMMITTEE RECESS

    This subcommittee will now stand in recess until Thursday, 
June 4, at 9:30 a.m., when we'll take testimony from the 
Director of the FBI.
    Before I put down the gavel, wasn't that just wonderful? I 
mean, don't you all feel that that was pretty exciting?
    So, thank you, again, Administrator Scolese, and thank you 
for your job, thank you for your service, and let's go where no 
Senate's gone before, and get this job done.
    [Whereupon, at 12:50 p.m., Thursday, May 21, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
June 4.]

</pre></body></html>
